1a
APPENDIX A
SUPREME COURT OF MISSOURI
No. SC 96924
State of Missouri,
Respondent,
v.
Craig M. Wood,
Appellant.
APPEAL FROM THE CIRCUIT COURT OF
GREENE COUNTY
The Honorable Thomas Mountjoy, Judge
Issued July 16, 2019
OPINION OF THE COURT
Zel M. Fischer, Judge.
Craig Wood appeals a judgment finding him guilty
of one count of first-degree murder, § 565.020, RSMo
2000, and sentencing him to death.1 This Court has exclusive appellate jurisdiction. Mo. Const. art. V, § 3.
The judgment is affirmed.

1

All statutory citations are to RSMo 2016 unless otherwise
indicated.

2a
FACTUAL AND PROCEDURAL BACKGROUND
On the afternoon of February 18, 2014, Carlos and
Michelle Edwards saw 10-year-old Hailey Owens
walking down the sidewalk near their home in Springfield. A tan Ford Ranger truck drove past Hailey,
turned around, and pulled alongside her. The driver,
later identified as Wood, asked Hailey for directions.
As Hailey began to walk away, Wood opened the door
and told her to come back. Hailey turned and stepped
toward the truck. Wood lunged at Hailey, and pulled
her into the truck. Mr. Edwards ran toward the truck,
yelling at Wood to stop. Wood sped away. Mrs. Edwards called 9-1-1 to report the incident and the
truck’s license plate number. The truck was registered
to Wood’s parents, but Wood was the primary driver.
Springfield police officers surveilled Wood’s home.
They observed a tan Ford Ranger truck pull into the
driveway. The truck’s license plate number matched
the number Mrs. Edwards reported. As an officer approached, Wood exited the truck and tossed a roll of
duct tape into the truck bed. Wood, nervous and smelling of bleach, acknowledged he knew why the officers
were there.
Wood voluntarily accompanied officers to police
headquarters. Wood admitted the Ford Ranger was
his, but declined to answer any questions regarding
Hailey’s location. Officers observed an abrasion and
dried blood on Wood’s lower lip, dried blood on one of
his fingers, and red vertical marks on his neck and
near his groin. His hat appeared to have bleach stains.
Wood told officers he made two trips to Walmart earlier in the day to purchase bleach and drain cleaner.
Wood also said he went to a laundromat, and his laundry was still there.

3a
Officers went to Wood’s house to look for Hailey.
They entered through an unlocked back door. A strong
odor of bleach emanated from the basement. The basement steps and floor were wet. A fan was running, and
a scrap of duct tape was on the floor. There were empty
bleach bottles and several plastic storage tubs. The officers secured the house and left.
After obtaining a search warrant, the officers returned and fully searched Wood’s home. Wood’s bed
was stripped of sheets and blankets. On the bedroom
dresser, police found a folder containing two handwritten stories detailing fantasies of sexual encounters between an adult male and 13-year-old girls. The folder
also contained photographs of girls who were students
at the middle school where Wood worked as an aide
and football coach.
In the basement, the officers found Hailey’s nude
body wrapped in black plastic bags, stuffed into a 35gallon plastic tub. Hailey’s body, stiffened from rigor
mortis, was wet and smelled of bleach. Her lips, cheek,
and ear were bruised. Ligature marks indicated Wood
tied Hailey by the wrists, and she struggled to free herself. A .22-caliber shell casing lay on the basement
floor. The shell casing was fired from a .22-caliber rifle
locked inside a gun safe in a storage room.
An autopsy showed Hailey died from a gunshot to
the back of her neck, killed by a .22-caliber bullet that
passed through the base of her brain. Wood fired the
fatal shot from point blank range, placing the barrel of
the gun on the back of Hailey’s neck before pulling the
trigger. Hailey’s vagina and anus were lacerated and
bruised in a manner consistent with sexual assault.

4a
While Wood had locked the murder weapon away
in a safe, officers found several guns larger than .22caliber and several shotguns left in open view throughout Wood’s home. In the bedroom, officers found a
shotgun leaning against the wall and a larger caliber
handgun on the nightstand next to the bed. An FBI
agent testified the .22-caliber rifle would make less
noise and less mess than other weapons found in the
house.
Officers discovered Hailey’s clothing in a dumpster behind a strip mall near Wood’s home. Surveillance video showed Wood placing Hailey’s clothes in
the dumpster. A receipt in Wood’s truck showed he
purchased a laundry bag and duct tape from Walmart
on the evening of Hailey’s murder. Police also obtained
video footage from Walmart showing Wood purchased
bleach and drain cleaner approximately an hour after
abducting Hailey.
Wood did not testify or present evidence during
the guilt phase. During guilt phase opening statements, Wood’s counsel argued Wood did not deliberate
before killing Hailey. The state’s closing argument emphasized the evidence showing Wood purposely and
deliberately killed Hailey. The state argued, “I submit
to you that when you place the muzzle, the end of the
barrel of a gun, against the back of the base of the skull
and you pull the trigger, there’s only one purpose you
can have, and that’s to kill someone. Your common
sense tells you that.” The state argued Wood deliberately killed Hailey because he chose “the smallest caliber weapon he has, that will make the least mess and
the least noise,” and then locked the murder weapon
away in a gun safe. The state concluded that considering this evidence in conjunction with evidence Wood

5a
attempted to conceal his crime by stripping the sheets
from his bed, bleaching and hiding Hailey’s body, and
disposing of her clothes in a dumpster behind a strip
mall proved beyond a reasonable doubt Wood deliberately killed Hailey. The jury found Wood guilty of murder in the first degree.2
During the penalty phase, the state presented a
detective’s testimony that he found no connection between Wood and Hailey or her family. A computer forensic examiner testified that after an Amber alert
was issued for Wood’s truck, a friend sent a text message to Wood asking “You haven’t been hunting, have
you.” Another friend texted, “Oh, great, I just got an
Amber Alert about a gold Ford Ranger. What have you
and bear done? ? ?” Wood’s dog was named Bear.
The state presented victim impact testimony from
the mother of one of Hailey’s friends, Hailey’s teacher,
her great-grandmother, two aunts, and a pastor. The
witnesses testified Hailey was a happy and loving
child. Hailey’s death left an “unfillable void” in her
family and traumatized her brother. Hailey’s teacher
testified that, after Hailey’s murder, her classmates’
behavior changed and they struggled to cope with Hailey’s death. Hailey’s aunt testified more than 10,000
people attended a vigil for Hailey. The pastor testified
“countless parents” told him they no longer allowed
2

In addition to one count of first-degree murder, the state
charged Wood with one count of armed criminal action, § 571.015,
RSMo 2000, one count of child kidnapping, § 565.115, RSMo
Supp. 2004, one count of first-degree rape, § 566.030, RSMo Supp.
2013, and one count of sodomy, § 566.060, RSMo Supp. 2013. The
state proceeded to trial only on the murder count. Because of
intensive pretrial publicity, a jury was chosen from Platte
County.

6a
their children to play unsupervised in their front yards
or walk to a friend’s house.
Wood presented testimony from his parents, three
friends, a priest, and two guards from the Greene
County jail. Wood’s parents testified regarding Wood’s
problems with depression and substance abuse, but
noted he was employed consistently and had no significant criminal history. Wood’s friends testified they
were shocked when he was arrested because such a
crime was out of character. One friend noted Wood
once saved a man from an apartment fire. None of
Wood’s friends were aware he had sexual fantasies
about young teenage girls. The priest testified that,
since his arrest, Wood renewed his faith, studied the
Bible, and regularly met to discuss what he had done.
The jail guards testified that, aside from hoarding pills
for an apparent suicide attempt, Wood caused no problems.
The jury found the following statutory aggravating circumstances beyond a reasonable doubt:
The murder of Hailey involved torture and depravity; that the defendant killed Hailey after
she was bound or otherwise rendered helpless
by the defendant, and the defendant thereby
exhibited a callous disregard for the sanctity
of all human life;
The defendant’s selection of the person he
killed was random and without regard to the
victim’s identity and that defendant’s killing
of Hailey thereby exhibited a callous disregard for the sanctity of human life;
The murder of Hailey was committed for the
purpose of avoiding arrest;

7a
The murder of Hailey was committed while
the defendant was engaged in rape;
The murder of Hailey was committed while
the defendant was engaged in sodomy;
The murder of Hailey was committed while
the defendant was engaged in kidnapping;
Hailey was a witness or potential witness of a
pending investigation of the kidnapping of
Hailey.
The jury unanimously found the foregoing aggravating circumstances but deadlocked on punishment.
The jury did not unanimously determine the mitigating circumstances outweighed the aggravating circumstances.
Because the jury deadlocked on punishment, the
circuit court determined the appropriate sentence as
required by § 565.030.4. The circuit court specifically
referenced the six aggravating circumstances found
unanimously by the jury and stated it “does accept and
agrees with the factual findings of the jury as set forth
in its verdict as to punishment.” The circuit court then
determined “the facts and circumstances in mitigation
of punishment were not sufficient to outweigh facts
and circumstances in aggravation of punishment.” Finally, “based upon factual findings of the jury,” the
court determined death was the appropriate sentence.
Wood presents nine points on appeal challenging
the circuit court’s evidentiary rulings, the state’s closing argument, the decision to strike a juror for cause,
and the constitutional validity of § 565.030 and §

8a
565.032 governing Missouri’s death penalty procedure.3
I.

Evidentiary Claims

Wood raises four points asserting the circuit court
erred by overruling his objections to the admission of
evidence. “A trial court has broad discretion to admit
or exclude evidence during a criminal trial, and error
occurs only when there is a clear abuse of this discretion.” State v. Hartman, 488 S.W.3d 53, 57 (Mo. banc
2016) (internal quotation omitted). “A trial court
abuses its discretion only if its decision to admit or exclude evidence is clearly against the logic of the circumstances then before the court and is so unreasonable and arbitrary that it shocks the sense of justice
and indicates a lack of careful, deliberate consideration.” State v. Blurton, 484 S.W.3d 758, 769 (Mo. banc
2016) (internal quotation omitted). “This Court will reverse the trial court’s decision only if there is a reasonable probability that the error affected the outcome of
the trial or deprived the defendant of a fair trial.” Id.
A.

Cell phone photographs properly
admitted

Wood claims the circuit court abused its discretion
during the guilt phase by overruling his objection to
the admission of 32 photographs from Hailey’s cellphone. The circuit court reviewed the photographs before overruling Wood’s objection and concluded they
were relevant and admissible.

3

For organizational purposes, Wood's points on appeal are
addressed out of order.

9a
The photographs were taken from 11:10 a.m. to
4:40 p.m., just minutes before Wood abducted Hailey.
The photographs depicted Hailey, her dog, family,
friends, stuffed animals, the neighborhood where she
was walking, and her friend’s handwritten lyrics to a
popular song. Wood argues the photographs were improper victim impact evidence during the guilt phase
because most of the photographs were cumulative and
had no logical or legal relevance to disputed facts pertaining to the murder charge.
“Evidence must be logically and legally relevant to
be admissible.” State v. Prince, 534 S.W.3d 813, 817
(Mo. banc 2017). “Evidence is logically relevant if it
tends to make the existence of a material fact more or
less probable.” Id. (internal quotation omitted). “Evidence is legally relevant when the probative value of
the evidence outweighs unfair prejudice, confusion of
the issues, misleading the jury, undue delay, waste of
time, or cumulativeness.” State v. Taylor, 466 S.W.3d
521, 528 (Mo. banc 2015) (internal quotation omitted).
“Photographs are relevant if they depict the crime
scene, the victim’s identity, the nature and extent of
the wounds, the cause of death, the condition and location of the body, or otherwise constitute proof of an
element of the crime or assist the jury in understanding the testimony.” State v. Collings, 450 S.W.3d 741,
762 (Mo. banc 2014) (internal quotation omitted).
The disputed element during the guilt phase was
deliberation. Section 565.002(3), RSMo 2000, defined
deliberation as “cool reflection for any length of time

10a
no matter how brief.”4 The element of deliberation
may be proven by the circumstances surrounding the
crime. Collings, 450 S.W.3d at 760. Although Wood
admitted he killed Hailey, “the state, having the burden of proving defendant’s guilt beyond a reasonable
doubt, should not be unduly limited in its quantum of
proof.” State v. Griffin, 756 S.W.2d 475, 483 (Mo.
banc 1988).
The photographs of Hailey and the neighborhood
where she was walking were logically and legally relevant because they assisted the jury with understanding the circumstances surrounding the crime. The photographs confirmed the timeline of events and showed
Hailey was wearing the same clothing Wood later discarded in the dumpster. Wood’s attempt to dispose of
Hailey’s clothing and conceal the crime supports an inference of deliberation. See State v. Tisius, 92 S.W.3d
751, 764 (Mo. banc 2002). Finally, the photographs assisted the jury with understanding the nature and extent of the injuries Wood inflicted on Hailey by showing she lacked any significant injuries prior to the abduction. The fact Hailey lacked injuries prior to the abduction assisted the jury with understanding the multiple injuries Wood inflicted, including ligature marks
indicating Hailey struggled to free herself. Evidence of
multiple injuries and prolonged struggle are relevant
to the state’s burden of proving the disputed element
of deliberation beyond a reasonable doubt. Id. The
photographs were relevant and admissible.

4

Section 565.002 was amended effective January 1, 2017. The
definition of “deliberation” remained the same but is now found
in § 565.002(5).

11a
To the extent the photographs of Hailey’s stuffed
animals, pets, family, and song lyrics are less relevant,
the issue is whether the allegedly erroneous evidentiary ruling was so prejudicial that there is a reasonable probability it affected the outcome of the trial.
Hartman, 488 S.W.3d at 57. The state briefly mentioned the photographs in the guilt phase closing argument to establish the timeline of events and the fact
Hailey had no injuries before Wood abducted her. The
state’s argument, therefore, was limited to referencing
the most relevant photographs. In any event, the overwhelming weight of the evidence clearly established
deliberation, and negates any reasonable probability
the outcome would have been different even if the circuit court had excluded some of the less logically relevant photographs.5
B.

Gun evidence properly admitted

Wood claims the circuit court abused its discretion
by admitting photographs and testimony regarding
firearms, ammunition, and related items found in his
home. Wood argues the evidence was logically irrelevant and prejudicial because the only possible purpose
was to show he was a “gun-crazed, dangerous person
with a propensity for violence.”
Evidence of weapons not connected to the accused
or the offense at issue are generally inadmissible.
State v. Hosier, 454 S.W.3d 883, 895 (Mo. banc 2015).
Because Wood’s sole defense during the guilt phase
was lack of deliberation, the state’s case hinged on
5

Wood argues the photographs may have affected the jury's
subsequent deliberations in the separate penalty phase. This
speculative argument fails because the circuit court did not abuse
its discretion by admitting the photographs in the guilt phase.

12a
showing deliberation. The evidence of firearms of varying calibers and gauges found throughout Wood’s
home shortly after he killed Hailey was logically and
legally relevant to show deliberation because it tended
to prove Wood deliberately chose the smallest weapon
from his collection to facilitate his efforts to cover up
the murder. In addition to Wood foregoing the multiple weapons stored throughout the house, the evidence
also showed that in the bedroom where the evidence
suggested Wood raped Hailey, officers found a shotgun
leaning against the wall and a large-caliber handgun
on the nightstand next to the bed. Wood used neither
one of those readily accessible weapons. Instead, Wood
used the small, .22-caliber rifle officers found locked in
a gun safe in the basement. The state made precisely
this point during closing argument:
He deliberately unloads and hides the rifle.
Do you remember all those guns he had
around of a higher caliber? In fact, when he’s
raping her in the bedroom, he’s got a handgun
right there he could have used. Does he use
that? No, he doesn’t. He chooses the smallest
caliber weapon he has, that will make the
least mess and the least noise, and then he
hides it in the gun safe, doesn’t leave it out
like the other guns, and he unloads that magazine.
The state’s closing argument emphasized and was
consistent with the fact the gun evidence was both logically and legally relevant to refute Wood’s argument
he did not deliberately kill Hailey. The dissenting
opinion, by relying on fundamentally distinguishable
cases, overlooks the fact the logical and legal relevance

13a
was amplified by the number of weapons precisely because it showed Wood deliberately chose the .22-caliber rifle even though multiple other weapons were
more readily accessible. 6 Further, unlike the cases
6

The dissenting opinion's argument that allowing the state to
carry its burden of proving deliberation by showing Wood chose
the smallest weapon from his large collection requires
“jettisoning of decades of case law” is based on a misreading of
that case law. Missouri law cautions against evidence of weapons
unrelated to the offense, particularly when the weapons
themselves are displayed to the jury. The cases cited by the
dissent illustrate this principle. For instance, in State v. Wynne,
353 Mo. 276, 182 S.W.2d 294, 297 (Mo. 1944), the issuing opinion
was “whether the appellant was unfairly and unjustly prejudiced
by the prosecuting attorney's exhibition and demonstration with
a pistol as he cross-examined her.” This Court held the appellant
was prejudiced because, “as the court told the jury, the .25-caliber
gun in question had no connection whatever with the defendant
or the crime.” Id. at 299. Similarly, in State v. Perry, 689 S.W.2d
123, 124-25 (Mo. App. 1985), the court held the defendant was
prejudiced by “admitting the loaded 20-gauge shotgun into
evidence” because it had no relation to the defendant and the
alleged robbery occurred “by means of a ‘handgun’ or ‘pistol.’ ” In
State v. Charles, 572 S.W.2d 193, 199 (Mo. App. 1978), the court
of appeals reversed murder and robbery convictions because the
circuit court erroneously permitted the state “to prove collateral
criminal offenses never admitted or for which there was no
conviction ... by the admission of lethal weapons totally foreign to
the offense for which an accused is standing trial.” Finally, in
State v. Holbert, 416 S.W.2d 129, 133 (Mo. 1967), this Court
reversed a conviction for carrying a concealed weapon because the
circuit court erroneously permitted the state to introduce two
unrelated pistols into evidence, leave the pistols in bags on the
counsel table, and pass the pistols to the jury for examination. In
Holbert, the prejudice resulted from the fact the pistol recovered
from the defendant's shirt pocket “was admitted without
objection” and was “in no way connected with the present offense”
involving a weapon recovered from the defendant's pants pocket.

14a
cited by the dissenting opinion, any alleged prejudicial
effect of the gun evidence “was minimized by admitting only photographs of the evidence, not the guns
and ammunition themselves.” Id. at 896. The circuit
court did not abuse its discretion by overruling Wood’s
objection to evidence of the firearms, ammunition, and
related items found throughout his home.7
C.

Contents of folder properly
admitted

Wood claims the circuit court abused its discretion
by overruling his objection to evidence of the contents
of the folder containing photos of four of Wood’s female, middle school students and handwritten accounts of fictional sexual encounters with 13-year-old
girls. Wood argues the photos and stories were inadmissible evidence of uncharged crimes relevant only
for the impermissible purpose of showing his propensity to commit the offense.
It is unnecessary to address the merits of Wood’s
argument because a party can open the door to the admission of evidence “with a theory presented in an
opening statement, or through cross-examination.”
Id. Conversely, the photographs and testimony regarding
weapons found throughout Wood's residence were both logically
and legally relevant to the central, disputed element of
deliberation.
7

The dissenting opinion asserts “it appears the circuit court
skipped” its “duty to weigh the probative value of each additional
piece of gun evidence against the inherently prejudicial nature of
gun evidence.” The dissenting opinion improperly presumes the
circuit court failed to analyze the evidence, even though the
record confirms the circuit court considered the logical and legal
relevance of this evidence when it considered Wood's motion in
limine and when objections were made at trial.

15a
State v. Shockley, 410 S.W.3d 179, 194 (Mo. banc 2013)
(internal quotation and citation omitted). During
opening statements, defense counsel argued the contents of the folder showed Wood acted out of compulsion, not deliberation, because his drug use unleashed
suppressed sexual desire for young teenage girls.
Wood argues defense counsel strategically chose to
discuss the folder because the circuit court overruled
his motion in limine to exclude the contents of the
folder from evidence. But Wood’s counsel recognizes a
ruling on a motion in limine is interlocutory and subject to change during trial. See Hancock v. Shook, 100
S.W.3d 786, 802 (Mo. banc 2003). Despite the interlocutory nature of the ruling, counsel chose to address the
folder in opening statements, and one consequence of
that strategic decision was to open the door to the admission of the evidence at trial. State v. Mickle, 164
S.W.3d 33, 57 (Mo. App. 2005); see also Bucklew v.
State, 38 S.W.3d 395, 401 (Mo. banc 2001) (concluding
defense counsel opened the door to the admission of
evidence the defendant previously committed an assault by mentioning background facts of the assault
during opening statements).
D.

Victim impact evidence properly
admitted

Wood claims the circuit court abused its discretion
by overruling his objection to the state’s penalty phase
evidence regarding the effect of Hailey’s murder on the
Springfield community and allowing the state to question witnesses in a manner intended to elicit emotional
responses. Specifically, Wood challenges testimony
that more than 10,000 people attended a vigil for Hailey, Hailey’s murder changed Springfield from a town

16a
to a city, and “countless parents” indicated they feared
for their children’s safety.
“Victim impact evidence is admissible under the
United States and Missouri Constitutions.” State v.
Driskill, 459 S.W.3d 412, 431 (Mo. banc 2015). “The
state is permitted to show the victims are individuals
whose deaths represent a unique loss to society and to
their family and that the victims are not simply faceless strangers.” Id. Further, § 565.030.4 provides penalty phase “evidence may include, within the discretion of the court, evidence concerning the murder victim and the impact of the offense upon the family of
the victim and others.” “Victim impact evidence violates the constitution if it is so unduly prejudicial that
it renders the trial fundamentally unfair.” Driskill,
459 S.W.3d at 431. (internal quotation omitted).
The testimony regarding the vigil was relevant to
show Hailey’s murder resulted in a “unique loss to society” and she was “not simply a faceless stranger[.]”
Id. Similarly, the testimony that Hailey’s murder
changed Springfield from a town to a city and parents
now feared for the children’s safety was relevant to the
impact of the offense on “the family of the victim and
others.” Section 565.030.4 (emphasis added).8 There
is no specific constitutional limitation on the consideration of community impact, and § 565.030.4 broadly

8

Wood asserts the pastor's testimony regarding what parents
told him was inadmissible hearsay. “To properly preserve an
issue for an appeal, a timely objection must be made during trial.”
State v. McFadden, 369 S.W.3d 727, 740 (Mo. banc 2012)
(internal quotation omitted). Wood did not preserve a hearsay
argument because he did not make a specific hearsay objection to
the pastor's testimony.

17a
and expressly authorizes evidence of the impact on
“others.”
Finally, Wood’s argument that the state’s questioning was aimed solely at eliciting emotional responses fails because a defendant is not necessarily
prejudiced by the fact some jurors or audience members in a murder trial exhibited emotional responses
to admissible evidence. The circuit court considered
the fact some jurors and an audience member wept,
but concluded it was simply an “emotional response to
the testimony which again I would put in the category
of being natural. Nothing disruptive about it to anyone.” In other words, the argument was “emotionally
charged” because “the facts of this case are inherently
emotionally charged.” State v. McFadden, 391 S.W.3d
408, 425 (Mo. banc 2013). The evidence reflected the
brutal facts of the case, and jurors and audience members cannot be expected to share Wood’s stoicism. The
circuit court did not abuse its discretion by overruling
Wood’s objection to the penalty phase victim impact
evidence.
II.

Closing Argument

Wood claims the circuit court plainly erred during
the penalty phase closing argument by permitting the
state to argue the jury could speak for Hailey and her
family by sentencing Wood to death. Wood timely objected, but did not raise the issue in his motion for a
new trial. “An issue is not preserved for appellate review if the issue is not included in the motion for a new
trial.” State v. Clay, 533 S.W.3d 710, 718 (Mo. banc
2017). This Court’s consideration of Wood’s claim is
discretionary and limited to determining whether a

18a
plain error resulted in a “manifest injustice or miscarriage of justice[.]” Rule 30.20.
The threshold issue in plain error review is
whether the circuit court’s error was facially “evident,
obvious, and clear.” State v. Jones, 427 S.W.3d 191,
195 (Mo. banc 2014) (internal quotation omitted). If
the appellant establishes a facially “evident, obvious,
and clear” error, then this Court will consider whether
the error resulted in a manifest injustice or miscarriage of justice. Id. To obtain a new trial on direct appeal based on a claim of plain error, the appellant
must show “the error was outcome determinative.”
State v. Baxter, 204 S.W.3d 650, 652 (Mo. banc 2006)
(internal quotation omitted). This Court rarely finds
plain error in closing argument, and reversal is warranted only if the defendant shows the improper argument “had a decisive effect on the jury’s determination.” McFadden, 369 S.W.3d at 747 (internal quotation omitted). “The entire record is considered when
interpreting a closing argument, not an isolated segment.” Id. (internal quotation omitted).
Before trial, Wood argued Hailey’s mother should
be allowed to testify she wanted Wood sentenced to life
without parole. The state objected, arguing a family
member’s opinions regarding sentencing are inadmissible. The circuit sustained the state’s objection, and
none of Hailey’s family members testified regarding
their sentencing preferences.
During the penalty phase closing argument, the
state recounted the circumstances of Hailey’s death
and argued the evidence warranted a death sentence.
The state then asserted, “With your verdict, sentencing [Wood] to the ultimate punishment, you speak for
Hailey....” Wood objected. The state continued, stating,

19a
“You speak for her family....” Wood once again objected. The circuit court overruled Wood’s objection.
The state continued, arguing Wood “not only brutalized Hailey, but he damaged her family, her brother,
her school, her entire community, and changed our
community, and your verdict will send a message to
this defendant.” The state concluded, “For all those
harms, this is the case. This is the case that calls for
the ultimate punishment, and I ask you to sentence
the defendant to death.”
Wood relies on State v. Roberts, 838 S.W.2d 126
(Mo. App. 1992), and Bosse v. Oklahoma, ––– U.S. –––
–, 137 S. Ct. 1, 196 L.Ed.2d 1 (2016), for the proposition the state’s reference to Hailey and her family in
closing argument resulted in a manifest injustice.
Both cases are distinguishable.
In Roberts, the state’s argument that the jury
spoke for the victim’s family was improper because
there was no evidence the victim had any family members. 838 S.W.2d at 131. In this case, there was ample
evidence of the devastating impact Hailey’s murder
had on her family.
In Bosse, the defendant objected to the state asking three of the victim’s family members to recommend
a sentence. 137 S. Ct. at 2. All three testified and recommended death. Id. Under these circumstances, the
United States Supreme Court held admitting evidence
of the family’s sentencing recommendations violated
the Eighth Amendment. Id. Bosse is distinguishable
because none of Hailey’s family members testified regarding their sentencing preference.
The crux of the state’s argument was the brutality
of Hailey’s murder and its impact on her family and

20a
the community required the jury to “send a message”
that such actions deserve a death sentence. 9 “This
Court has held that ‘send a message’ statements are
permissible.” McFadden, 391 S.W.3d at 425. Further,
the state did not explicitly argue any of Hailey’s family
members wanted Wood to receive the death penalty.
The state’s isolated reference to speaking for Hailey
and her family in the context of making a permissible
“send a message” argument by imposing a death sentence did not change the outcome of this case. Wood
has not shown a manifest injustice justifying the rare
step of finding plain error based on statements made

9

The dissenting opinion's argument rests on vigor alone, for it
does not cite a single case holding that, during the course of a
closing argument detailing the impact of the murder on the
victim's family and community, a single sentence fragment
referring to the victim's family constitutes plain error. Bosse did
not hold a fleeting reference to the family's wishes during closing
argument results in plain error. Bosse held it was error to permit
three family members to testify directly to the jury that they
wanted the defendant sentenced to death. Bosse, 137 S. Ct. at 2.
In Barnett v. State, 103 S.W.3d 765, 772 (Mo. banc 2003), this
Court held defense counsel was not ineffective for declining to call
the victims' family to testify in favor of a life sentence because
such evidence is “irrelevant.” In State v. Williams, 119 S.W.3d
674, 681 (Mo. App. 2003), the court of appeals found plain error
because the circuit court erroneously excluded an exculpatory
recording on the basis of a discovery sanction, and the state then
argued there was no exculpatory evidence. Finally, in State v.
Weiss, 24 S.W.3d 198, 204 (Mo. App. 2000), the court of appeals
held the state's misrepresentations regarding existence of
possibly exonerating documents constituted plain error. As these
cases illustrate, the dissenting opinion relies exclusively on
materially distinguishable cases to take the extraordinary step of
finding plain error in closing argument by divorcing the state's
brief reference to Hailey's family from the broader context of a
closing argument detailing the impact on the community.

21a
in closing argument. State v. Anderson, 79 S.W.3d 420,
439 (Mo. banc 2002) (“Statements made in closing argument will only rarely amount to plain error.”).
III.

Juror Properly Stricken for Cause

Wood claims the circuit court abused its discretion
by sustaining the state’s motion to strike a venireperson for cause during the death qualification voir dire.
The circuit court’s “ruling on a challenge for cause
will not be disturbed on appeal unless it is clearly
against the evidence and constitutes a clear abuse of
discretion.” State v. Deck, 303 S.W.3d 527, 535 (Mo.
banc 2010) (internal quotation omitted). “Deference to
the trial court is appropriate because it is in a position
to assess the demeanor of the venire, and of the individuals who compose it, a factor of critical importance
in assessing the attitude and qualifications of potential jurors.” McFadden, 369 S.W.3d at 738 (internal
quotation omitted). “The qualifications for a prospective juror are not determined from a single response,
but rather from the entire examination.” Deck, 303
S.W.3d at 535.
In her jury questionnaire, the venireperson stated
she opposed the death penalty. On a scale of one to
seven, with one denoting strong opposition to the
death penalty and seven denoting strong support, she
rated her position as two. The venireperson explained
she opposed the death penalty because she believed it
was imposed disproportionately on “poor people or minorities.” She stated life without parole is the best option, and said she is a “very peaceful and non-violent
believer.” Finally, she stated the death penalty is “barbaric” and “We should not stoop to the level of a criminal. We are better than that.”

22a
During voir dire, the venireperson stated she
could consider the death penalty, but reiterated she is
“strongly against it in general” because it is not distributed fairly. She stated she did not believe the state
commits a wrong by executing someone, but explained
“we should not act as criminals ourselves in ending a
life. I feel like, you know, it’s – I guess I don’t believe
in the eye for an eye type of punishment. I’m not sure
if that answers your question.” She stated, “I could
consider it even though I am, on principle, opposed in
general.” The venireperson stated, if she were jury
foreman, her conscience would not permit her to sign
a death verdict, but she could if it indicated the jury
unanimously agreed to the verdict.
The state asked the venireperson if her conscience
would “let you vote in favor of a death verdict?” She
responded, “I think that’s really what I meant, is my
gut instinct is no, my conscience wouldn’t – I’m against
the death penalty.” The state asked, “your gut instinct
is you could not vote for it?” The venireperson responded “Yes, that’s right.”
During surrebuttal voir dire, the venireperson
told defense counsel she did not believe in the death
penalty and would have a very hard time making that
call. She stated she would consider the death penalty
if certain things fell into place and that she owed it to
the victim to listen to both sides.
The state moved to strike the venireperson for
cause. Wood objected. The circuit court sustained the
state’s motion. The court noted the venireperson’s answers that her conscience would not let her vote for the
death penalty, and that she could consider the death
penalty only because she owed it to the victim’s family.

23a
Just as the defendant has an interest in an impartial jury without an uncommon willingness to impose
a death sentence, the state has a “strong interest in
having jurors who are able to apply capital punishment within the framework state law prescribes.”
White v. Wheeler, ––– U.S. ––––, 136 S. Ct. 456, 460,
193 L.Ed.2d 384 (2015) (internal quotation omitted).
When there is ambiguity in the venireperson’s statements, the circuit court can resolve the ambiguity in
favor of the state. Id.; State v. Roberts, 948 S.W.2d 577,
597 (Mo. banc 1997).
After a complete review of the juror questionnaire
and the record of the entire examination rather than
individual responses, the circuit court was faced with
a situation on which it was uncertain whether the venireperson could “apply capital punishment within the
framework state law prescribes.” Wheeler, 136 S. Ct.
at 460. The circuit court did not abuse its discretion by
resolving the ambiguity in the state’s favor and sustaining the state’s motion to strike the venireperson
for cause.
IV.

Constitutional Arguments

Wood claims § 565.030 violates his Sixth Amendment right to a jury trial by permitting the circuit
court to impose a death sentence when the jury deadlocks on punishment. Wood also claims § 565.030 violates his right to be free from cruel and unusual punishment pursuant to the Eighth Amendment and article I, § 21 of the Missouri Constitution because the
statute permits the circuit court to impose a death sentence following the jury’s deadlock on punishment. Finally, Wood claims § 565.032 fails to sufficiently narrow the class of persons eligible for a death sentence.

24a
“Challenges to the constitutional validity of a
state statute are subject to de novo review.” State v.
Shanklin, 534 S.W.3d 240, 241 (Mo. banc 2017) (internal quotation omitted). “A statute is presumed constitutional and will be found unconstitutional only if it
clearly and unambiguously contravenes a constitutional provision.” Id. at 241-42 (internal quotation
omitted). “The person challenging the validity of the
statute has the burden of proving the act clearly and
undoubtedly violates the constitutional limitations.”
Id. at 242 (internal quotation omitted).
A.

Sixth Amendment

Section 565.030.4 establishes the procedure for
the penalty phase of a first-degree murder trial when
the state does not waive the death penalty. Assuming
the defendant is not intellectually disabled, §
565.030.4(1), the defendant is eligible for a death sentence only when the jury finds at least one statutory
aggravating circumstance beyond a reasonable doubt.
§ 565.030.4(2). When the jury finds a statutory aggravating circumstance, the jury proceeds to the weighing
step, and must impose a life sentence if it “concludes”
evidence in mitigation outweighs the evidence in aggravation. § 565.030.4(3). If the jury concludes the evidence in mitigation does not outweigh evidence in aggravation, the jury “decides” whether to “assess and
declare the punishment at death.” § 565.030.4(4). If
the jury deadlocks on punishment, the circuit court determines punishment by following “the same procedure as set out in this section[.]” § 565.030.4. Wood argues this sentencing procedure violated his Sixth
Amendment right to a jury trial because it permitted
the circuit court to impose a death sentence following
the jury’s deadlock on punishment.

25a
Wood’s argument was considered and rejected by
this Court. State v. Shockley, 410 S.W.3d 179, 198-99
(Mo. banc 2013). As in this case, the jurors in Shockley
answered special interrogatories listing several statutory aggravators that they found unanimously beyond
a reasonable doubt. Id. at 198. As in this case, the jurors in Shockley also stated they did not conclude
unanimously that the mitigating circumstances outweighed those in aggravation. Id. Like Wood, Shockley
argued § 565.030.4 violates the Sixth Amendment by
permitting the circuit court, rather than the jury, to
weigh the aggravators and mitigators and determine
punishment if the jury is unable to reach a penalty
phase verdict. Id. This Court held:
Permitting a judge to consider the presence of
statutory aggravators and to weigh mitigating evidence against that in aggravation in
deciding whether to impose a death sentence
when the jury did not unanimously agree on
punishment does not negate the fact that the
jury already had made the required findings
that the State proved one or more statutory
aggravators beyond a reasonable doubt and
that it did not unanimously find that the factors in mitigation outweighed those in aggravation. Rather, the statute provides an extra
layer of findings that must occur before the
court may impose a death sentence.
Id. at 198-99. Shockley establishes that, when the jury
finds the facts making a defendant eligible for a death
sentence, the Sixth Amendment does not prohibit the
circuit court from resolving the jury’s penalty phase
deadlock by imposing a death sentence. Id. at 199 n.11;

26a
see also State v. McLaughlin, 265 S.W.3d 257, 264 (Mo.
banc 2008).
The jury unanimously found beyond a reasonable
doubt the existence of six aggravating factors:
The murder of Hailey involved torture and depravity; that the defendant killed Hailey after
she was bound or otherwise rendered helpless
by the defendant, and the defendant thereby
exhibited a callous disregard for the sanctity
of all human life;
The defendant’s selection of the person he
killed was random and without regard to the
victim’s identity and that defendant’s killing
of Hailey thereby exhibited a callous disregard for the sanctity of human life;
The murder of Hailey was committed for the
purpose of avoiding arrest;
The murder of Hailey was committed while
the defendant was engaged in rape;
The murder of Hailey was committed while
the defendant was engaged in sodomy;
The murder of Hailey was committed while
the defendant was engaged in kidnapping;
Hailey was a witness or potential witness of a
pending investigation of the kidnapping of
Hailey.
The jury did not unanimously determine the mitigating circumstances outweighed the aggravating circumstances and deadlocked on punishment. The circuit court resolved the deadlock by accepting and reciting the jury’s findings that the state proved six aggravating factors beyond a reasonable doubt. The cir-

27a
cuit court then concluded the aggravating circumstances outweighed mitigating circumstances, and decided a death sentence was appropriate.
Wood argues this Court must reexamine Shockley
and McLaughlin in light of Hurst v. Florida, ––– U.S.
––––, 136 S. Ct. 616, 193 L.Ed.2d 504 (2016). Wood argues Hurst prohibits Missouri’s death penalty by allowing the circuit court, following the jury’s deadlock
on punishment, to find the aggravating circumstances
outweighed the mitigating circumstances. Wood’s argument is that the weighing step is a factual finding
constitutionally entrusted to the jury.
The Sixth Amendment, “in conjunction with the
Due Process Clause, requires that each element of a
crime be proved to the jury beyond a reasonable
doubt.” Alleyne v. United States, 570 U.S. 99, 104, 133
S.Ct. 2151, 186 L.Ed.2d 314 (2013). In addition to the
facts underlying the charged offense, an “element” includes any fact that “expose[s] the defendant to a
greater punishment than that authorized by the jury’s
guilty verdict[.]” Apprendi v. New Jersey, 530 U.S. 466,
494, 120 S.Ct. 2348, 147 L.Ed.2d 435 (2000). Therefore, “[w]hen a finding of fact alters the legally prescribed punishment so as to aggravate it, the fact necessarily forms a constituent part of a new offense and
must be submitted to the jury.” Alleyne, 570 U.S. at
114-15, 133 S.Ct. 2151.
In death penalty cases, the existence of an aggravating circumstance exposes the defendant to a
greater punishment and, therefore, is a factual element the jury must find beyond a reasonable doubt.
Ring v. Arizona, 536 U.S. 584, 604, 122 S.Ct. 2428, 153
L.Ed.2d 556 (2002). In Ring, the statute at issue provided the trial judge could impose a death sentence

28a
only after independently finding at least one aggravating circumstance. Id. at 592-93, 122 S.Ct. 2428. The
statute violated the Sixth Amendment right to a jury
trial because it authorized the trial judge alone to find
aggravating circumstances making the defendant eligible for a death sentence. Id. at 609, 122 S.Ct. 2428.
In Hurst v. Florida, ––– U.S. ––––, 136 S. Ct. 616,
624, 193 L.Ed.2d 504 (2016), the United States Supreme Court applied Ring to invalidate Florida’s statutory death penalty sentencing procedure because it
authorized “the judge alone” to find the existence of
aggravating circumstances. Under Florida’s procedure, the jury recommended an “advisory sentence”
without specifying the factual basis for its recommendation. Id. at 620. Following the jury’s advisory sentence, Florida’s statute required the judge to impose a
sentence of life imprisonment or death based on “the
trial judge’s independent judgment about the existence of aggravating and mitigating factors[.]” Id. (internal quotation omitted). Because of the jury’s limited, advisory role, Florida juries did “not make specific factual findings with regard to the existence of
mitigating or aggravating circumstances,” and the
trial judge assumed the “central and singular role” in
finding the facts necessary to impose a death sentence.
Id. at 622. Given this procedural framework, the jury
in Hurst found no specific aggravating circumstance,
but nonetheless returned a non-unanimous advisory
sentence recommending a death sentence. Id. at 620.
The trial judge independently found the facts supporting two specific statutory aggravating circumstances
and sentenced the defendant to death. Id.

29a
Hurst held Florida’s death penalty sentencing procedure violated the Sixth Amendment because it “required the judge alone to find the existence of an
aggravating circumstance[.]” Id. at 624 (emphasis
added). Hurst emphasized the limited scope of its holding by overruling Spaziano v. Florida, 468 U.S. 447,
104 S.Ct. 3154, 82 L.Ed.2d 340 (1984), and Hildwin v.
Florida, 490 U.S. 638, 109 S.Ct. 2055, 104 L.Ed.2d 728
(1989), only “to the extent they allow a sentencing
judge to find an aggravating circumstance, independent of a jury’s factfinding, that is necessary
for imposition of the death penalty.” Id. (emphasis
added). Hurst is a straightforward application of Ring
and stands only for the proposition that, in a jury tried
case, aggravating circumstances are facts that must be
found by the jury beyond a reasonable doubt. Hurst
does not hold the determination of whether mitigating
factors outweigh aggravating factors or that death is
an appropriate sentence are factual elements that
must be found by a jury.10

10

Instruction 16 stated in pertinent part:
....
If you do unanimously find at least one statutory aggravating circumstance beyond a reasonable doubt, as
submitted in Instruction No. 13, and you are unable to
unanimously find that the facts or circumstances in
mitigation of punishment outweigh the facts and circumstance in aggravation of punishment, but are unable to agree upon the punishment, your foreperson will
complete the verdict form and sign the verdict form
stating that you are unable to decide or agree upon the
punishment. In such case, you must answer the questions on the verdict form and write into your verdict all

30a
Wood’s argument ignores the limited holding in
Hurst and settled precedent that a death sentence requires two distinct determinations: “the eligibility decision and the selection decision.” Tuilaepa v. California, 512 U.S. 967, 971, 114 S.Ct. 2630, 129 L.Ed.2d 750
(1994). The eligibility decision is based on factual findings that the defendant has a conviction “for which the
death penalty is a proportionate punishment” and the
existence of an “aggravating circumstance (or its
equivalent) at either the guilt or penalty phase.” Id. at
971-72, 114 S.Ct. 2630 (internal quotation omitted).
The factual findings underlying the eligibility decision
are verifiable; they either do or do not exist. Kansas v.
Carr, ––– U.S. ––––, 136 S. Ct. 633, 642, 193 L.Ed.2d
535 (2016). Unlike the factual findings underlying the
eligibility decision, the selection decision requires the
sentencer to consider “the character of the individual
and the circumstances of the crime” and “relevant mitigating evidence[.]” Tuilaepa, 512 U.S. at 972, 114
S.Ct. 2630. Once the jury finds the facts showing the
defendant is eligible for a death sentence, the sentencer has “unbridled discretion” in making the selection decision. Id. at 979-80, 114 S.Ct. 2630.
of the statutory aggravating circumstances submitted
in Instruction No. 13 that you found beyond a reasonable doubt and your foreperson must sign the verdict
form stating that you are unable to decide or agree
upon the punishment. If you return a verdict indicating that you are unable to decide or agree upon the
punishment, the court will fix the defendant's punishment at death or at imprisonment for life by the Department of Corrections without eligibility for probation or parole. You will bear in mind, however, that under the law, it is the primary duty and responsibility of
the jury to fix the punishment.

31a
The selection decision is fundamentally different
than the eligibility decision. “[T]he ultimate question
[of] whether mitigating circumstances outweigh aggravating circumstances is mostly a question of
mercy[.]” Carr, 136 S. Ct. at 642. Unlike the factual
finding that an aggravating circumstance does or does
not exist, the selection decision is a discretionary judgment, and “jurors will accord mercy if they deem it appropriate, and withhold mercy if they do not, which is
what our case law is designed to achieve.” Id.11
Wood’s case illustrates this concept. There is no
factually verifiable answer to the question of whether

11

As this Court held in State v. McLaughlin, 265 S.W.3d 257
(Mo. banc 2008), State v. Whitfield, 107 S.W.3d 253 (Mo. banc
2003):
... does not state that a judge cannot enter a death sentence if the jury deadlocks; it says, rather, that under
the principles set out in Ring [v. Arizona, 536 U.S. 584,
122 S.Ct. 2428, 153 L.Ed.2d 556 (2002) ], the jury must
make the required factual findings that increase the
punishment from a life sentence to death. Whitfield,
107 S.W.3d at 261–62. Since Whitfield, Missouri's instructions in capital cases have been revised to require
the jurors to answer special interrogatories indicating
whether they found a statutory aggravating factor to
be present, and if so, what factor, and whether they
found that mitigating evidence did not outweigh aggravating evidence. See MAI CR 3d 314.40, 314.58....
Whitfield did not hold that a judge could not consider
the facts and make a determination whether to impose
death once a jury had found the facts necessary to
make a defendant eligible for a death sentence under
section 565.030.4, and such a procedure does not violate Ring.
McLaughlin, 265 S.W.3d at 264.

32a
Wood’s lack of a significant criminal record and struggle with depression outweigh the fact he raped and
sodomized Hailey before shooting her in the back of
the neck at point blank range and discarding her body
in a plastic tub. Neither a jury nor a judge can prove
or disprove a conclusion the evidence on one side outweighs the evidence on the other. After the jury found
the existence of multiple aggravating circumstances
beyond a reasonable doubt, the determination of
whether Wood’s personal circumstances mitigated the
brutality of his crime was a discretionary judgment
call that neither the state nor federal constitution entrusts exclusively to the jury.12
This Court’s decision in State v. Whitfield, 107
S.W.3d 253 (Mo. banc 2003), does not dictate a different result. In Whitfield, this Court applied Ring and
recalled the mandate in a death penalty case because
the jury did not decide all the facts necessary for a
death sentence. 107 S.W.3d at 261-62. Although Whitfield properly recognized the existence or non-existence of an aggravating circumstance is a factual finding the jury must make, Whitfield erroneously suggested weighing the aggravating and mitigating circumstances is also a factual finding reserved for the
jury. Id. at 261, 270. This Court’s more recent cases
corrected this aspect of Whitfield, and now uniformly
recognize the weighing step is not a factual finding

12

Wood relies on Rauf v. State, 145 A.3d 430, 432-33 (Del.
2016), and Hurst v. State, 202 So. 3d 40 (Fla. 2016), for his proposition that determining whether the aggravating circumstances
outweigh the mitigating circumstances is a factual element the
Sixth Amendment requires the jury to find. These cases are not
binding, and both are wrongly decided.

33a
that must be found by the jury beyond a reasonable
doubt.
In Zink v. State, 278 S.W.3d 170, 192-93 (Mo. banc
2009), this Court held appellate counsel was not ineffective for declining to argue the penalty phase instructions violated Ring and Apprendi by not instructing the jury to find beyond a reasonable doubt that
mitigating circumstance outweighed aggravating circumstances. Zink held appellate counsel was not ineffective for declining to raise this “meritless” claim because the weighing step is not “a finding of a fact that
may increase Mr. Zink’s penalty. Instead, the jury is
weighing evidence and all information before them.”
Id. at 193.
In State v. Anderson, 306 S.W.3d 529, 540 (Mo.
banc 2010), this Court rejected the defendant’s argument that the existence and weight of mitigating circumstances were facts that must be proven to the jury
beyond a reasonable doubt. This Court reasoned Ring
and Apprendi only require the state to prove beyond a
reasonable doubt factual elements, including statutory aggravating circumstances. Id. Therefore, “neither the constitution nor the Missouri death penalty
statute require that the State prove the weighing step
beyond a reasonable doubt.” Id.
In State v. Dorsey, 318 S.W.3d 648, 653 (Mo. banc
2010), this Court cited Zink and again held “the jury’s
‘weighing’ of the aggravation and mitigation evidence is not subject to proof beyond a reasonable doubt because it is not a factual finding that
increases the potential range of punishment.”
(Emphasis added). Similarly, in State v. Nunley, 341
S.W.3d 611, 626 n.3 (Mo. banc 2011), this Court noted

34a
a number of federal and state cases holding the weighing step is not a factual determination implicating the
Sixth Amendment right to a jury trial.13 To the extent
Whitfield presumes the weighing step is a factual finding constitutionally reserved for the jury, it should no
longer be followed.14

13

The three statutory aggravators the jury found supported by
the evidence were that: (1) the defendant killed a peace officer
because of the exercise of his official duty; (2) the victim was
murdered for the purpose of preventing a lawful arrest of the
defendant, and (3) the victim was a potential witness in the
pending investigation of defendant for leaving the scene of a
motor vehicle accident and was killed as a result of his status as
a potential witness. It is uncontested that as a highway
patrolman, Sergeant Graham was a peace officer. The State
presented substantial evidence that Sergeant Graham was
investigating Mr. Shockley's involvement in another crime at the
time of the murder, that Mr. Shockley was concerned that the
investigation would lead to his arrest, and that Sergeant Graham
had uncovered evidence of Mr. Shockley's involvement in the
fatal truck accident involving Mr. Bayless and was a potential
witness in that action.
14 Wood claims the special interrogatory showing the jury did
not unanimously find the evidence in mitigation outweighed the
evidence in aggravation does not show what the jury found and,
instead, shows only what the jury did not find. Wood argues it is
possible eleven jurors found the mitigating circumstances
outweighed the aggravating circumstances. Wood’s argument is
irrelevant to his Sixth Amendment claim because it is premised
on the faulty proposition the weighing step is a factual finding
only the jury can make.
Neither Wood’s point relied on nor his argument raised the
additional meritless argument urged by the dissenting opinion.
The dissenting opinion sua sponte asserts, as a matter of
statutory interpretation, that § 565.030.4 requires the jury to
make a factual finding that the mitigating evidence either does

35a
Wood also cites Whitfield for the proposition that
the § 565.030.4 deadlock procedure is equivalent to the
Florida death penalty procedure held unconstitutional
in Hurst. Wood relies on Whitfield to argue the §
565.030.4 deadlock procedure provides the jury’s factual findings “simply disappear,” and the circuit court
independently finds the facts necessary to impose a
death sentence. 107 S.W.3d at 271.
In Whitfield, the record did not demonstrate
whether the jury made the required factual findings.
Id. at 270. The resulting death sentence was not based
on the jury’s factual findings and, instead, was “entirely based” on the circuit court’s findings. Id. at 261.
In that circumstance, when there was no record the
jury made the constitutionally required findings in the
first place, Whitfield concluded the circuit court’s “independent” findings resulted in a death sentence that
violated the Sixth Amendment. Id. at 261.

or does not outweigh the aggravating evidence. The dissenting
opinion reasons that holding the weighing step is not a factual
finding conflates the jury’s role in the third and fourth steps. In
other words, the dissenting opinion reasons that unless the
weighing step is a factual finding, it is identical to the
discretionary “mercy” determination in the fourth step. The plain
language of § 565.030.4, however, establishes distinct inquiries
for the jury at both steps. The weighing step balances the
mitigating and aggravating circumstances, while the final step
requires the jury to engage in a separate inquiry to determine
“under all the circumstances” whether a death sentence is
warranted. This Court’s conclusion that neither of these
determinations is a factual finding constitutionally entrusted to
the jury does not mean they are the same.

36a
Rather than limiting its holding to the determination there was no record the jury made any constitutionally required findings, Whitfield unnecessarily extrapolated a general rule that the § 565.030.4 deadlock
procedure always eliminates the jury’s factual findings and replaces them with the circuit court’s factual
findings. See id. at 271. Section 565.030.4, however,
provides only that if the jury deadlocks on punishment, the court is to “follow the same procedure as set
out in this section[.]”15 Requiring the circuit court to

15
Following Whitfield, the jury instructions in capital cases
were revised to require jurors to answer special interrogatories
indicating whether they found a statutory aggravating factor to
be present, and if so, what factor, and whether they found that
mitigating evidence did not outweigh aggravating evidence.
Shockley, 410 S.W.3d at 199 n.11. Section 565.030.4 provides:

If the trier at the first stage of a trial where the death
penalty was not waived finds the defendant guilty of
murder in the first degree, a second stage of the trial
shall proceed at which the only issue shall be the punishment to be assessed and declared. Evidence in aggravation and mitigation of punishment, including but
not limited to evidence supporting any of the aggravating or mitigating circumstances listed in subsection 2
or 3 of section 565.032, may be presented subject to the
rules of evidence at criminal trials. Such evidence may
include, within the discretion of the court, evidence
concerning the murder victim and the impact of the offense upon the family of the victim and others. Rebuttal and surrebuttal evidence may be presented. The
state shall be the first to proceed. If the trier is a jury
it shall be instructed on the law. The attorneys may
then argue the issue of punishment to the jury, and the
state shall have the right to open and close the argu-

37a
“follow the same procedure” does not necessarily mean
the jury’s constitutionally required findings “simply
disappear” or that the circuit court must displace the
ment. The trier shall assess and declare the punishment at life imprisonment without eligibility for probation, parole, or release except by act of the governor:
(1) If the trier finds by a preponderance of the evidence that the defendant is intellectually disabled; or
(2) If the trier does not find beyond a reasonable
doubt at least one of the statutory aggravating
circumstances set out in subsection 2 of section
565.032; or
(3) If the trier concludes that there is evidence in
mitigation of punishment, including but not limited to evidence supporting the statutory mitigating circumstances listed in subsection 3 of section
565.032, which is sufficient to outweigh the evidence in aggravation of punishment found by the
trier; or
(4) If the trier decides under all of the circumstances not to assess and declare the punishment
at death. If the trier is a jury it shall be so instructed.
If the trier assesses and declares the punishment at
death it shall, in its findings or verdict, set out in writing the aggravating circumstance or circumstances
listed in subsection 2 of section 565.032 which it found
beyond a reasonable doubt. If the trier is a jury it shall
be instructed before the case is submitted that if it is
unable to decide or agree upon the punishment the
court shall assess and declare the punishment at life
imprisonment without eligibility for probation, parole,
or release except by act of the governor or death. The
court shall follow the same procedure as set out in this
section whenever it is required to determine punishment for murder in the first degree.

38a
jury’s constitutionally required factual findings with
the court’s independent findings. The Sixth Amendment does not prohibit the circuit court during sentencing from finding facts previously found by the
jury. State v. Johnson, 524 S.W.3d 505, 512 (Mo. banc
2017). As this Court observed in Shockley, § 565.030.4
“provides an extra layer of findings that must occur
before the court may impose a death sentence.” 410
S.W.3d at 198-99.16
Missouri’s death penalty sentencing procedure is
fundamentally different from the Florida statute the
Supreme Court invalidated in Hurst. Unlike the Florida statute, § 565.030 does not limit the jury to providing an “advisory sentence” without making the constitutionally required factual findings rendering the defendant eligible for a death sentence. When, as in this
case, the jury deadlocks on punishment, it has necessarily already made the constitutionally required factual finding of an aggravating circumstance. When the
circuit court follows “the same procedure set out in this
section” to resolve the jury’s deadlock on punishment,
the constitutional role of the jury as the finder of fact
has already been fulfilled and the circuit court may
only impose a death sentence when it confirms the
finding of at least one aggravating circumstance and

16

Because the expansive interpretation of § 565.030.4 in
Whitfield and advocated for by Wood is not compelled by the plain
language of the statute, it violates the “accepted canon of
statutory construction that if one interpretation of a statute
results in the statute being constitutional while another
interpretation would cause it to be unconstitutional, the
constitutional interpretation is presumed to have been intended.”
Blaske v. Smith & Entzeroth, Inc., 821 S.W.2d 822, 838-39 (Mo.
banc 1991).

39a
makes the non-factual, discretionary determinations
that the aggravating circumstances outweigh mitigating circumstances and death is an appropriate sentence. This Court has repeatedly held neither of these
determinations is a factual finding that must be performed by the jury. Shockley, 410 S.W.3d at 198-99;
Dorsey, 318 S.W.3d at 653; Anderson, 306 S.W.3d at
540; Zink, 278 S.W.3d at 193. Hurst does not hold or
imply otherwise. The § 565.030.4 penalty phase deadlock procedure does not violate the Sixth Amendment.
B.

Eighth Amendment

Wood claims § 565.030.4 violates the Eighth
Amendment and article I, § 21 of the Missouri Constitution because “evolving standards of decency” prohibit a judge from imposing a death sentence after the
jury finds aggravating circumstances but deadlocks on
punishment. The Eighth Amendment and article I, §
21 of the Missouri Constitution provide the same protection against cruel and unusual punishment. State
v. Nathan, 522 S.W.3d 881, 882 n.2 (Mo. banc 2017);
State v. Lee, 841 S.W.2d 648, 654-55 (Mo. banc 1992).
Wood asserts § 565.030.4 is unconstitutional because
Missouri’s procedure is “an extreme outlier,” with only
Indiana employing a similar process.
The Eighth Amendment provides: “Excessive bail
shall not be required, nor excessive fines imposed, nor
cruel and unusual punishments inflicted.” “The Cruel
and Unusual Punishments Clause prohibits the imposition of inherently barbaric punishments under all
circumstances.” Graham v. Florida, 560 U.S. 48, 59,
130 S.Ct. 2011, 176 L.Ed.2d 825 (2010). “While the
Eighth Amendment doesn’t forbid capital punishment,

40a
it does speak to how States may carry out that punishment, prohibiting methods that are cruel and unusual.” Bucklew v. Precythe, ––– U.S. ––––, 139 S. Ct.
1112, 1123, 203 L.Ed.2d 521 (2019) (internal quotation
omitted).
In addition to categorically prohibiting cruel and
unusual methods of punishment, the United States
Supreme Court has construed the Eighth Amendment
to prohibit punishments disproportionate to the offense because “[t]he concept of proportionality is central to the Eighth Amendment.” Graham, 560 U.S. at
59, 130 S.Ct. 2011. In the death penalty context, proportionality requires “that capital punishment must
be limited to those offenders who commit a narrow category of the most serious crimes and whose extreme
culpability makes them the most deserving of execution.” Kennedy v. Louisiana, 554 U.S. 407, 420, 128
S.Ct. 2641, 171 L.Ed.2d 525 (2008) (internal quotation
omitted). Therefore, when the method of execution is
not at issue, the analysis of Eighth Amendment challenges to a death sentence begins with “two subsets,
one considering the nature of the offense, the other
considering the characteristics of the offender.” Graham, 560 U.S. at 60, 130 S.Ct. 2011.
Wood’s argument that the circuit court cannot resolve the jury’s deadlock and impose a death sentence
does not state an Eighth Amendment claim. First,
there is no dispute the nature of the offense rendered
Wood constitutionally eligible for a death sentence.
“To render a defendant eligible for the death penalty
in a homicide case, we have indicated that the trier of
fact must convict the defendant of murder and find one
‘aggravating circumstance’ (or its equivalent) at either
the guilt or penalty phase.” Tuilaepa, 512 U.S. at 971-

41a
72, 114 S.Ct. 2630. The jury found beyond a reasonable
doubt Wood committed a first-degree murder and also
found multiple aggravating circumstances.
Second, the fact the circuit court resolved the
jury’s penalty phase deadlock by determining the mitigating factors did not outweigh the aggravating factors and sentencing Wood to death does not relate to a
“characteristic of the offender,” like age or intellectual
disability. See Roper v. Simmons, 543 U.S. 551, 578,
125 S.Ct. 1183, 161 L.Ed.2d 1 (2005) (holding the
Eighth Amendment prohibits the death penalty for juvenile offenders); Atkins v. Virginia, 536 U.S. 304, 321,
122 S.Ct. 2242, 153 L.Ed.2d 335 (2002) (holding the
Eighth Amendment prohibits the death penalty for offenders who are “mentally retarded”). As Wood notes,
sentencing procedures that fail to provide adequate
standards to guide the sentencer’s assessment of offender’s characteristics may violate the Eighth
Amendment. See Hall v. Florida, 572 U.S. 701, 715-24,
134 S.Ct. 1986, 188 L.Ed.2d 1007 (2014) (holding a
statute requiring the defendant show an IQ score of 70
or below before being allowed to present additional evidence of intellectual disability evidence violated the
Eighth Amendment). Wood’s argument the Eighth
Amendment prohibits the judge from resolving the
jury’s penalty phase deadlock does not show § 565.030
fails to provide adequate standards to guide the sentencer’s assessment of the offender’s characteristics
and limit the death penalty to the most culpable offenders. Instead, Wood’s argument distills to a recycled version of his meritless argument that the Sixth
Amendment requires the jury to find the aggravating
circumstances outweigh the mitigating circumstances
and that death is an appropriate sentence. The §

42a
565.030.4 deadlock procedure does not violate the
Eighth Amendment.
Finally, Wood argues the circuit court erred by
overruling his pretrial objection that § 532.030 and §
532.032 are unconstitutional because they fail to genuinely narrow the class of persons eligible for the
death penalty to the most serious crimes and the most
culpable offenders. Wood asserts the 17 aggravating
circumstances set forth in § 532.032 are too numerous,
unconstitutionally broad, and vest prosecutors with
too much discretion. Wood cites no case supporting his
arguments. This Court previously rejected similar arguments, and does so once again. State v. Williams, 97
S.W.3d 462, 473-74 (Mo. banc 2003) (statutory aggravators not unconstitutionally broad); State v. Taylor,
18 S.W.3d 366, 376 (Mo. banc 2000) (“Prosecutors are
given broad discretion in seeking the death penalty”).
V.

Proportionality

Section 565.035.3 imposes an independent duty
on this Court to undertake a proportionality review to
determine:
(1) Whether the sentence of death was imposed
under the influence of passion, prejudice, or any other
arbitrary factor; and (2) Whether the evidence supports the jury’s or judge’s finding of a statutory aggravating circumstance as enumerated in subsection 2 of
section 565.032 and any other circumstance found; (3)
Whether the sentence of death is excessive or disproportionate to the penalty imposed in similar cases,
considering both the crime, the strength of the evidence and the defendant.

43a
There is no indication Wood was sentenced to
death as a result of passion, prejudice, or any other arbitrary factor. The evidence vividly demonstrated how
Wood brutally and deliberately killed Hailey after abducting her, restraining her, and raping her. Wood’s
death sentence resulted from the brutality of his
crime, not the passion, prejudice or arbitrariness of the
sentencer.
The evidence also overwhelmingly supported the
jury’s unanimous finding beyond a reasonable doubt of
multiple aggravating circumstances. The evidence
showed Wood randomly selected Hailey, kidnapped
her, raped and sodomized her, and then shot her at
point blank range while she was bound and helpless.
Finally, the death sentence in this case not disproportionate to the penalty imposed in similar cases.
This Court has affirmed a death sentence when the defendant murdered the victim after raping the victim.
Driskill, 459 S.W.3d at 433; Dorsey, 318 S.W.3d at 659:
McLaughlin, 265 S.W.3d at 277-78. This Court has affirmed death sentences resulting from the murder of
vulnerable, defenseless victims. Anderson, 306 S.W.3d
at 544; State v. Barton, 998 S.W.2d 19, 29 (Mo. banc
1999); State v. Clayton, 995 S.W.2d 468, 484 (Mo. banc
1999). Hailey was vulnerable and defenseless. She was
a 10-year-old girl randomly abducted by a grown man
who then restrained her, raped her, and killed her before bleaching her lifeless body and stuffing it in a
plastic tub. Finally, this Court has repeatedly affirmed
death sentences in cases involving the heinous killing
of a child. See State v. Collings, 450 S.W.3d 741, 768
(Mo. banc 2014) (concluding death sentence proportionate when defendant sexually abused and murdered a 9-year-old girl); State v. Johnson, 207 S.W.3d

44a
24, 51 (Mo. banc 2006) (concluding death sentence proportionate when defendant admitted he kidnapped,
attempted to rape, and then killed a 6-year-old).
This Court’s independent research has identified
no cases showing a death sentence for the random abduction, rape, and murder of a child is disproportionate. There is overwhelming evidence of Wood’s guilt
and the existence of multiple aggravating circumstances. The death sentence meets all statutory requirements.
Conclusion
The judgment is affirmed.
Wilson, Russell, Powell, and Breckenridge, JJ.,
concur; Stith, J., dissents in separate opinion filed;
Draper, C.J., concurs in opinion of Stith, J.; Breckenridge, J., concurs in section III of the opinion of Stith,
J.
DISSENTING OPINION
Laura Denvir Stith, Judge
I disagree with the principal opinion’s determination it was not prejudicial error to permit the prosecution to introduce testimony and some 29 photographs
of weapons and gun accessories that were not used in
the murder. I also disagree with its handling of the
prosecution’s intentional reference to evidence of the
family’s wishes for a death sentence, for such evidence
is categorically inadmissible. The error was compounded by the fact the prosecutor had purposely kept
out evidence that the victim’s mother did not wish a
death sentence to be imposed.

45a
Finally, while I agree the jury made the three factual determinations required by section 565.030.4
and, therefore, the statute permitted the judge to determine whether to impose a death sentence, I disagree with the principal opinion that the third of the
four questions the statute requires does not require
the jury to make a factual determination. It does. It
requires the jury to weigh and balance the evidence
supporting mitigation with the evidence in aggravation – a weighing and balancing each of our jurors is
called on to make every day in our courts. The principal opinion’s conclusion otherwise makes question
three merely redundant of question four, which allows
the jury to exercise mercy even if it has not found any
of the three facts set out in questions one, two or three
that would have required imposition of a life sentence.
The facts presented by the underlying crime are
appalling and horrifying. This makes it even more important to apply settled legal principles. “It is the duty
of all courts of justice to take care, for the general good
of the community, that hard cases do not make bad
law.” Seilert v. McAnally, 223 Mo. 505, 122 S.W. 1064,
1068 (Mo. 1909). While I agree with much of the principal opinion, I am concerned that the terrible nature
of the crime makes this the type of hard case about
which Seilert cautioned.

46a
I.

IT WAS AN ABUSE OF
DISCRETION TO ALLOW
TESTIMONY AND 29 PHOTOS OF
GUNS AND GUN-RELATED ITEMS
AT MR. WOOD’S HOUSE THAT
WERE UNRELATED TO THE
CHARGED CRIME

“The objection to the introduction of weapons or
other demonstrative evidence, especially when not
connected with the defendant or his crime, on the
ground of unfair prejudice is based on sound psychological and philosophical principles.” State v. Wynne,
353 Mo. 276, 182 S.W.2d 294, 298 (Mo. 1944). But the
principal opinion finds no error in the admission of
what it terms “evidence of firearms of varying calibers
and gauges found throughout Wood’s home shortly after he killed Hailey.” Op. at 576. In so ruling, it fails to
acknowledge the staggering depth and breadth of unrelated gun evidence that the trial court admitted.
This is a horrific case. That does not justify the jettisoning of decades of case law.
“The courts of this state, with notable consistency, have recognized that weapons unconnected
with either the accused or the offense for which he is
standing trial lack any probative value and their admission into evidence is inherently prejudicial and
constitutes reversible error.” State v. Perry, 689
S.W.2d 123, 125 (Mo. App. 1985). “[T]he sight of deadly
weapons or of cruel injuries tends to overwhelm reason
and to associate the accused with the atrocity without
sufficient evidence.” Wynne, 182 S.W.2d at 289, quoting 4 Wigmore, Evidence § 1157 (1940) (reversing a
second-degree murder conviction after demonstration
to the jury with a weapon unconnected to the crime).

47a
“Lethal weapons completely unrelated to and unconnected with the criminal offense for which an accused
is standing trial have a ring of prejudice seldom attached to other demonstrative evidence, and the appellate courts of this state have been quick to brand
their admission into evidence ... as prejudicial error.”
State v. Charles, 572 S.W.2d 193, 198 (Mo. App. 1978).
The only reason advanced by the State that evidence of more than 20 unrelated guns and accessories
is logically relevant is that the evidence goes to “prove
he deliberately chose the smallest weapon from his collection to facilitate his efforts to cover up the murder”
despite the fact other weapons were closer at hand.
Op. at 576. But logical relevance is not sufficient – the
circuit court also must determine legal relevance by
weighing “the probative value of the evidence against
its costs – unfair prejudice, confusion of the issues,
misleading the jury, undue delay, waste of time, or cumulativeness.” State v. Anderson, 76 S.W.3d 275, 276
(Mo. banc 2002). The State could have made its point
simply by introducing evidence Mr. Wood owned numerous guns, he had to pass one or more to get to the
gun he used, and it was the smallest. The judge might
have permitted introduction of a picture of one or two
of those guns. This would have balanced the prejudice
resulting from introduction of this only minimally probative but highly prejudicial gun evidence.
Instead, the gun evidence became a centerpiece of
the trial and went far beyond what was necessary to
present the facts deemed relevant. During the guilt
phase, the State presented evidence of the .22-caliber
shell casing and rifle which appeared to be the weapon
used to kill Hailey. Then, over Mr. Wood’s objection, it
also presented lengthy testimony from F.B.I. Special

48a
Agent Tucker about more than 20 other guns and gunrelated accessories accompanying the guns. Agent
Tucker testified Mr. Wood had a holstered Ruger .44
pistol on his dining room table, a .45-caliber pistol on
a nearby bookshelf, a .38-caliber revolver on the bookshelf, a gun case with two semiautomatic handguns, a
pump action shotgun just inside his bedroom, a .40
Springfield semiautomatic in his bedroom, a Smith
and Wesson revolver in his storage room, a gun safe
with 10 more guns in it, and a pump action shotgun to
the right of the gun safe.
For each of these guns, the jury was shown a photograph of the weapon as Agent Tucker described the
weapon. The State also asked Agent Tucker to describe finding weapon accessories, including: a speed
reloader, the gun cases, and a bookshelf with a box of
ammunition, and reloading supplies, which Agent
Tucker described as a “reloading station.” The State
asked Agent Tucker to describe how a speed reloader
worked, and why a person may purchase one, and
showed the jury photographs of all of these items.
In total, the jury viewed 29 photographs of different weapons and accessories. The testimony by Agent
Tucker accompanying the photographs stretches more
than 20 pages in the transcript and likely took more
than an hour. The jury also was shown a large diagram of Mr. Wood’s home, and saw Agent Tucker mark
an “X” where each of these weapons or accessories was
located. At no time has it been argued any of these
items besides the .22-caliber rifle was the murder
weapon.
Case law has long established that even “logically
relevant evidence is excluded if its costs outweigh its
benefits.” Anderson, 76 S.W.3d at 276. State v. Holbert,

49a
416 S.W.2d 129, 133 (Mo. 1967), rejected attempts to
justify, in a trial for carrying a concealed weapon, the
admission of two other pistols found on or near the defendant to show the “intent” of the defendant to carry
a third pistol that was the basis of the charge. Given
that intent to conceal is generally found when the person was found concealing a weapon, the Court said admission of an unrelated pistol found under a seat cushion “could have served no possible purpose except prejudice.” Id.
Further, the principal opinion faults the prejudice
analysis in this dissent for relying on cases in which
the gun is unrelated to either the defendant or the
crime. But that is incorrect. In Holbert, 416 S.W.2d at
130, this Court held the admission of a gun found in
the defendant’s shirt pocket and a gun found in the defendant’s car was in error, despite the clear connection
to the defendant and the scene of the crime, because
those guns were unconnected to the charge. In so
holding, this Court wrote, “the dangerous tendency
and misleading probative force of this class of evidence
require that its admission should be subjected by the
courts to rigid scrutiny.” Id. at 132. In State v. Krebs,
341 Mo. 58, 106 S.W.2d 428, 429 (Mo. 1937), this Court
ruled evidence of two guns found on the defendant’s
person when he was arrested was admitted in error
given that the State made no showing the guns were
used in the crime for which he was arrested. Accord
Anderson, 76 S.W.3d at 276 (holding a glossy advertisement of semiautomatic weapons lacked legal relevance even though the pamphlet was found in the defendant’s home and depicted the type of weapon used
in crime, because it caused unfair prejudice, although

50a
not reversible when a one-time reference). This is because the question is legal relevance – when the prejudice created by a gun or gun related item outweighs
the probative value, then it is legally irrelevant even
if the evidence has some factual relationship to the
case. Each case cited by this dissent is cited for and
reaffirms this proposition.
The imbalance decried in these cases is present
here. It would have been within the circuit court’s discretion to permit the introduction of evidence Mr.
Wood passed up a couple of guns located in or just outside the bedroom. But that some of the guns and gun
accessories were relevant simply means the circuit
court was not required to exclude all evidence of other
guns. The circuit court then had a duty to weigh the
probative value of each additional piece of gun evidence against the inherently prejudicial nature of gun
evidence. From the record, it appears the circuit court
skipped this step and simply admitted evidence en
masse after finding slight relevance without considering evidence as to a particular gun or accessory to determine whether this additional evidence actually was
legally relevant, and how to limit its prejudicial impact. This was error. Holbert, 416 S.W.2d at 130 (holding that, when weapons unconnected to the crime were
admitted, it was “perfectly obvious that their use
throughout the trial was prejudicial to the defendant”).
This holds true for the evidence of gun accessories
such as reloaders as well. There of course could be no
suggestion that Mr. Wood could have killed Hailey
with a gun accessory, and it is undisputed he did not
use a gun accessory to commit the murder. Yet the
prosecution did not merely mention Mr. Wood had

51a
these accessories; rather, it spent considerable time
describing them and their use. For example, although
there was no contention a reloader was used in the
crime, the prosecution was permitted to introduce photographs of the reloader, a diagram marking where it
was found, and extensive witness testimony, which included an explanation of how a speed reloader works,
and possible reasons a person might purchase one.
None of this highly prejudicial evidence of reloaders and other accessories is relevant to whether Mr.
Wood committed the murder, and the State offers no
explanation as to why this extended evidence about a
speed reloader is needed to show deliberation through
Mr. Wood choosing one gun over another. Nor has it
justified evidence of the “reloading station” with boxes
of ammunition, reloading supplies, and reloading
equipment. A much more likely explanation for the
submission of this extensive evidence is to establish a
propensity for violence.
Nor is this error harmless. The extended testimony, combined with a diagram and dozens of photographs, highlighted its prejudicial nature. “Admission
of the shotgun into evidence by virtue of its inherent
prejudicial nature and lack of relevancy, coupled with
the state’s advert reference to it before the jury to obtain defendant’s conviction, dispel any credence to the
state’s argument that any error associated therewith
was harmless....” Perry, 689 S.W.2d at 126. This is particularly true here, where despite the horrific facts of
the case, the jury was deadlocked as to punishment.
But for this extensive prejudicial evidence, the jury
may have assessed the punishment at life imprisonment without parole. For this reason, I would find the

52a
introduction of so many guns and gun accessories here
is prejudicial error and reverse.
II.

THE CIRCUIT COURT PLAINLY
ERRED IN OVERRULING MR. WOOD’S
OBJECTION TO THE PROSECUTOR’S
ARGUMENT IN THE PENALTY PHASE
THAT THE JURY SPOKE FOR HAILEY
AND HER FAMILY BECAUSE THE LAW
SPECIFICALLY PROHIBITS FAMILY
MEMBERS’ COMMENTS ABOUT
PUNISHMENT AND THE
PROSECUTOR EXCLUDED EVIDENCE
HAILEY’S MOTHER DID NOT WANT A
DEATH SENTENCE

The principal opinion declines to find that the
prosecutor’s comment in closing argument that the jurors would “speak for [Hailey’s] family” by sentencing
Wood to death was plain error causing manifest injustice. Op. at 579–80. Whether this comment would require reversal in another case, it manifestly should do
so when, as here, it was the prosecutor who successfully kept out evidence that Hailey’s mother did not in
fact want him to receive the death penalty. We have
not only a comment by the prosecutor in violation of
the rules prohibiting telling the jury the family’s
wishes as to punishment, therefore, but we also have
the prosecutor deliberately misrepresenting those
wishes to the jury. As discussed below, courts have often found prejudice when the prosecution requires evidence to be excluded and then takes advantage of that
exclusion to misrepresent the evidence to the jury.

53a
Pretrial, Mr. Wood sought to elicit testimony in
the penalty phase of Hailey’s family’s wish that he receive a sentence of life without parole. At the hearing,
Hailey’s mother testified that, if called in the penalty
phase and asked what sentence she wanted Mr. Wood
to receive, she would say life without parole. Upon further questioning from the court, she testified she
wanted to avoid a trial and encourage Mr. Wood to
plead guilty. When asked, if the State insisted on a
trial, “what would you like to see happen to Mr. Wood
as a result of him having killed your daughter?” the
victim’s mother responded that her answer would still
be life without parole, even if the trial happened.
The circuit court correctly excluded the mother’s
evidence, following the United States Supreme Court’s
opinion in Bosse v. Oklahoma, ––– U.S. ––––, 137 S. Ct.
1, 2, 196 L.Ed.2d 1 (2016), and this Court’s opinion in
State v. Barnett, 103 S.W.3d 765, 772 (Mo. banc 2003),
expressly holding “[o]pinions of family members as to
the appropriate punishment are irrelevant” and “[t]he
jury should not be put in the position of carrying out
the victim’s wishes, whether they are for or against the
death penalty.” But, during closing argument, the
prosecutor then implied he knew the family wanted a
death sentence when in arguing for the death penalty
he told the jury:
MR. PATTERSON: With your verdict, sentencing [Mr. Wood] to the ultimate punishment, you speak for Hailey -MR. BERRIGAN: We’d object, Judge.
MR. PATTERSON: You speak for her family --

54a
At this point, defense counsel objected again, and argued the prosecutor’s argument “improperly attributes the decision regarding life or death to Hailey Owens and her family.” The circuit court overruled the
objection. The prosecutor then returned to the argument, stating Mr. Wood “not only brutalized Hailey,
but he damaged her family, her brother, her school,
her entire community, and changed our community,
and your verdict will send a message to this defendant.”
The principal opinion erroneously concludes all of
the statements from the prosecutor in that exchange
can properly fall under “send a message” testimony.
Op. at 579–80. This Court has indeed held it is permissible for the State to make statements “amount[ing] to
a call for action, requesting jurors to send a message
of intolerance to the community.” State v. Smith, 944
S.W.2d 901, 919 (Mo. banc 1997); accord State v.
McFadden, 391 S.W.3d 408, 425 (Mo. banc 2013) (explaining the State may argue “the need for strong law
enforcement, the prevalence of crime in the community, and that conviction of the defendant is part of the
jury’s duty to uphold the law and prevent crime” [and]
“the protection of the public rests with them” (internal
quotations omitted)).
But while this precedent supports a finding no error resulted from the prosecutor’s later “send a message” argument, the principal opinion fails to explain
how this precedent would permit the prosecutor’s preceding, clearly improper argument that, in deciding
life or death, the jury would “speak for Hailey” and “for
her family.” This is more than a statement calling on
the jurors to think about their role in protecting the

55a
public or their duty to the community. This is the State
asking the jury to act on behalf of the family.
Contrary to the principal opinion’s suggestion
that only direct testimony of a family member is prohibited, such comments purporting to ask the jury to
represent the family’s wishes fall within the scope of
comment the United States Supreme Court has held
is prejudicial and not to be permitted in Booth v. Maryland, 482 U.S. 496, 508, 107 S.Ct. 2529, 96 L.Ed.2d
440 (1987). Booth did not involve direct family testimony. Rather, it considered whether it was error for
the prosecutor to read aloud to the jury from a victim
impact statement, prepared by the state division of parole and probation, that contained reports of the family members’ opinions about sentencing, including a
statement from the victim’s daughter that “[s]he
doesn’t feel that the people who did this could ever be
rehabilitated.” Id. The Supreme Court held “the formal presentation of this information by the State can
serve no other purpose than to inflame the jury and
divert it from deciding the case on the relevant evidence concerning the crime and the defendant.” Id. Admission of the evidence required reversal.
While the Supreme Court has since held that victim impact testimony is permitted, see Payne v. Tennessee, 501 U.S. 808, 827, 111 S.Ct. 2597, 115 L.Ed.2d
720 (1991), it has reaffirmed the inadmissibility of evidence of the wishes of the victim’s family as to punishment. Bosse, 137 S. Ct. at 3, reversed the Oklahoma
Court of Criminal Appeals’ conclusion that family
views about punishment were now admissible, specifically stating that, until it specifically overruled that
part of Booth, which it said it had not done, the Eighth

56a
Amendment creates a “prohibition on characterizations and opinions from a victim’s family members
about the crime, the defendant, and the appropriate
sentence.”
The principal opinion’s attempt to distinguish
Booth and Bosse because the family itself did not testify is no distinction at all. The family did not testify
in Booth either, and the plain language of Bosse shows
the Supreme Court’s disapproval was not as to how the
family’s wishes came into evidence, but rather was the
fact those wishes came into evidence at all. Id. Indeed,
as this Court stated in Barnett, the jury should not be
told of the family’s wishes, for “[t]he jury should not be
put in the position of carrying out the victims’ wishes,
whether they are for or against the death penalty.” 103
S.W.3d at 772. accord State v. Taylor, 944 S.W.2d 925,
938 (Mo. banc 1997) (explaining a victim’s family
members should never give an opinion about the appropriateness of a particular sentence). Here, the jurors were told that, in deciding death, they would
“speak for” the family. This can only be understood as
a comment about the family members’ wishes and
opinions. This directly violates governing Supreme
Court law.
The principal opinion also contends that, because
it was an isolated statement and connected to other,
permissible statements, Mr. Wood cannot show manifest injustice. But the Supreme Court has made it
clear telling the jury about the victim’s wishes is a serious violation – even when the information is accurate. Missouri law agrees. It is well-settled that a prosecutor commits error by “comment[ing] on or refer[ing]
to evidence or testimony that the court has excluded.”

57a
State v. Williams, 119 S.W.3d 674, 680 (Mo. App. 2003)
(alterations in original).
Equally telling, the information was not accurate.
The prosecutor went beyond simply commenting inappropriately about the family’s opinions. He deliberately distorted the family’s opinions after taking action to ensure the family could not testify about their
opinions.
Missouri courts have repeatedly held it is manifest injustice requiring reversal for a prosecutor to intentionally misrepresent evidence to the jury after
seeking the exclusion of that same evidence. Id. at 681;
State v. Weiss, 24 S.W.3d 198, 204 (Mo. App. 2000).
Here, the prosecutor was self-evidently well aware
that commenting about what the family desires for
punishment is not allowed, as he demonstrated in his
successful argument to exclude the evidence. To then
turn around and deliberately argue something he not
only knows is not permissible, but that he also knows
to be exactly the opposite of what the mother would
actually have said, is inexcusable behavior and is manifestly unjust. State v. Hammonds, 651 S.W.2d 537,
539 (Mo. App. 1983). It requires reversal of the penalty
phase verdict.

58a
III.

THE JURY DETERMINATION
WHETHER THERE IS EVIDENCE IN
MITIGATION SUFFICIENT TO
OUTWEIGH EVIDENCE IN
AGGRAVATION IS A FACTUAL
FINDING

In section 565.030.4,1 the legislature set out four
requirements for a jury assessing and declaring punishment in a death case, as follows:
The trier shall assess and declare the punishment at life imprisonment without eligibility
for probation, parole, or release except by act
of the governor:
(1) If the trier finds by a preponderance
of the evidence that the defendant is intellectually disabled; or
(2) If the trier does not find beyond a reasonable doubt at least one of the statutory aggravating circumstances set out in
subsection 2 of section 565.032; or
(3) If the trier concludes that there is evidence in mitigation of punishment, including but not limited to evidence supporting the statutory mitigating circumstances listed in subsection 3 of section
565.032, which is sufficient to outweigh
the evidence in aggravation of punishment found by the trier; or
(4) If the trier decides under all of the circumstances not to assess and declare the

1

All statutory references are to RSMo 2000.

59a
punishment at death. If the trier is a jury
it shall be so instructed.
Rather than setting out what the jury must find
to impose a death sentence, the statute directs the jury
it must first make a factual determination whether a
defendant is intellectually disabled. If so, the jury is
required to impose a life sentence. Second, the jury is
told it must determine whether at least one statutory
aggravator was proved. If not, it must impose a life
sentence. Third, the jury is told it must make a determination whether “there is evidence in mitigation of
punishment” which outweighs “the evidence in aggravation of punishment.” Id. If so, again, it must impose
a life sentence. Only when the jury has made these
findings does it “decide[ ] under all the circumstances”
whether to exercise discretion to impose life in prison
as a matter of mercy.
I do not disagree with the majority opinion that,
in this case, the record shows the jury made the factual
findings required by section 565.030.4(1), (2), and (3)
and deadlocked only on the question in section
565.030.4(4) whether they should exercise their discretion to impose a sentence of life. This distinguishes
this case from State v. Whitfield, 107 S.W.3d 253, 261
(Mo. banc 2003), in which, because no jury interrogatories were used, this Court was unable to determine
whether the jury made the necessary findings under
the balancing question. The record revealed only that
the jurors were split on punishment, but not at what
point the jurors became split. Id. The death sentence
imposed was “entirely based on the judge’s findings
that all four steps favored imposition of the death penalty.” Id. at 262-63. Because of this, Whitfield specifically required affirmative, unanimous, jury findings

60a
on the questions then required by Missouri law, including that there was a statutory aggravator and that
mitigation did not outweigh aggravation. Id. at 264.
The kind of unanimous jury findings required by
Whitfield were returned by the jury here. The jury did
not find Mr. Wood intellectually disabled, did find a
statutory aggravator, and did not find that the evidence in mitigation outweighed that in aggravation.
Had the jury found otherwise on any of these questions, section 565.030.4 would have capped Mr. Wood’s
sentence at life. On (4), however, the jury deadlocked
as to whether to grant mercy despite its failure to find
grounds for limiting the available sanction to life in
(1), (2) and (3). The trial judge was tasked under the
statute, therefore, to make that ultimate decision. I
agree this last question asks the jurors and then the
judge to look into their hearts and determine whether
to exercise mercy.
The principal opinion errs, however, in conflating
this last question of mercy with the third question, in
which the jury is asked to balance mitigating and aggravating evidence and decide whether the former outweighs the latter. The principal opinion appears to believe, because the jury already determined there is a
statutory aggravator, death is on the table and the
third question, therefore, is just an extra opportunity
for mercy by the jury. But question order cannot turn
a requirement for imposition of a death sentence into
a superfluity.
Imagine, for instance, that the instruction reversed the order of the questions (the statute itself prescribes no particular order), and first asked the jury to
decide whether there is evidence in mitigation outweighing the evidence in aggravation, and only later

61a
asked whether the jury had found a statutory aggravator. Would that make the statutory aggravator
question simply one that goes to mercy, one not required for imposition of the death penalty? Of course
not. The finding of such an aggravator is required both
by the United States Supreme Court under the United
States Constitution, and by section 565.030.4(2). It is
a factual question that must be answered to impose
death.
The same is true when, as here, the instructions
have been written to ask the statutory aggravator and
intellectual disability questions first, and then the balancing question. 2 Word order does not define importance, for all three questions must be answered in
order for either judge or jury to impose a sentence of
death. It is only the fourth requirement, at which the
jury has made its factual determinations and is tasked
with deciding whether, nonetheless, to impose a life
sentence, that the judge is permitted to decide on the
sentence if the jury deadlocks.

2

The principal opinion notes that, under current Supreme
Court jurisprudence, finding a statutory aggravator is present is
all that is required by the Sixth Amendment. See Kansas v.
Marsh, 548 U.S. 163, 175, 126 S.Ct. 2516, 165 L.Ed.2d 429 (2006),
quoting, Franklin v. Lynaugh, 487 U.S. 164, 179, 108 S.Ct. 2320,
101 L.Ed.2d 155 (1988) (holding a statutory scheme must allow
for the narrowing of death-eligible offenses and for the fact finder
to consider mitigating evidence, but “a specific method for
balancing mitigating and aggravating factors in a capital
sentencing proceeding” is not required (internal quotations
omitted)). My argument is not with the principal opinion’s Eighth
Amendment analysis but with its statutory interpretation. While
the constitution may not require that the jury balance this
evidence, section 565.030.4 does so require.

62a
The principal opinion also seems to suggest the
third question is not one of fact because it requires the
jury to balance the evidence and this somehow is akin
to being asked whether to grant mercy. If this were
correct, it would make the fourth requirement redundant and superfluous. It is not correct, however. The
principal opinion’s approach ignores that jurors are
asked to balance the evidence in making factual determinations every day.
Indeed, the first two questions in section
565.030.4 also require the jury to balance the evidence
– to weigh the evidence of whether defendant is intellectually disabled and whether the evidence shows a
statutory aggravator. The only difference in (3) is that
the statute explicitly tells the jury what evidence it is
to consider – the mitigating and aggravating evidence.
To do so, the jury must make the same kinds of credibility determinations and weighing and drawing of inferences from the evidence as it does in answering the
first two questions.
Such balancing and weighing of evidence to reach
a verdict has historically been the province of the jury.
“The credibility and weight of testimony are for the
fact-finder to determine.” State v. Crawford, 68 S.W.3d
406, 408 (Mo. banc 2002) (emphasis added). It is the
jury’s task to “determine the credibility of the witnesses, resolve conflicts in testimony, or weigh the
evidence.” Fowler v. Daniel, 622 S.W.2d 232, 236
(Mo. App. 1981) (emphasis added). On appellate review, “this Court will not weigh the evidence anew
since the fact-finder may believe all, some, or none of
the testimony of a witness when considered with the
facts, circumstances and other testimony in the case.”
State v. Freeman, 269 S.W.3d 422, 425 (Mo. banc 2008)

63a
(internal quotations omitted) (emphasis added). In
fact, this Court’s standard of review often requires a
determination whether the evidence on one side so
outweighed that on the other that the jury verdict is
“against the weight of the evidence.” This necessarily
recognizes the jury must weigh the evidence to reach
its verdict, as it “denotes an appellate test of how much
persuasive value evidence has, not just whether sufficient evidence exists that tends to prove a necessary
fact.” Ivie v. Smith, 439 S.W.3d 189, 206 (Mo. banc
2014) (internal quotations omitted); White v. Dir. of
Revenue, 321 S.W.3d 298, 309 (Mo. banc 2010).
Because the third question requires a factual finding by the jury, as Whitfield held, it cannot be found
by the judge if the jury had deadlocked on the third,
not the fourth, question. It is the jurors who must balance the evidence and make the factual determination
whether evidence in mitigation outweighs that in aggravation. I believe the interrogatories make it clear
the jury here did make such a factual determination
that mitigators did not outweigh aggravators. To the
extent the principal opinion states such a factual determination is not required, it is incorrect and the
cases on which it relies should be overruled on that
point. 3 Failure of the jury to make any of the three
findings required under subdivisions (1) through (3) of

3

The principal opinion cites to statements in State v.
Dorsey, 318 S.W.3d 648, 653 (Mo. banc 2010), State v. Anderson,
306 S.W.3d 529, 540 (Mo. banc 2010), and Zink v. State, 278
S.W.3d 170 (Mo. banc 2009), to support its position.

64a
section 565.030.4 precludes imposition of a death sentence because a jury must find every fact necessary for
imposition of a death sentence.
IV.

CONCLUSION

For the reasons stated above, I dissent.

65a
APPENDIX B
SUPREME COURT OF MISSOURI
No. SC 96924
State of Missouri,
Respondent,
v.
Craig M. Wood,
Appellant.
Issued September 3, 2019
ORDER OF THE COURT
BETSY AUBUCHON, CLERK.
Appellant’s motion for rehearing overruled.

66a
APPENDIX C
IN THE 31ST JUDICIAL CIRCUIT COURT,
GREENE COUNTY MISSOURI
No. 1431-CR00658-01
State of Missouri,
v.
Craig M. Wood,
Defendant.
Entered January 11, 2018
SENTENCE AND JUDGMENT
The Defendant appears in person and with his Attorney Patrick Berrigan and Thomas Jacquinot.
The State appears by Assistant Prosecuting Attorney Dan Patterson, Todd Myers and Elizabeth Kieswetter Fax.
THE COURT FINDS THAT THE DEFENDANT Was found Guilty on 11/02/17.
IT IS THE SENTENCE AND JUDGMENT OF
THE COURT THAT: Defendant is sentenced as follows:
Count Class
I

Charge

Felony 1002100
A
*Disc-Murder
1st Degree

Sentence
DEATH

67a
The sentences shall run concurrent with any existing.
Judgement against Deft pursuant to § 595.045
RSMo. Crime Victim’s Comp. Fund in the amount of
$68.00.
Probation is denied and Defendant is ordered
committed to the custody of the Missouri Department
of Corrections and Human Resources/Sheriff of Green
County. The Sheriff is ordered to transport forthwith,
with extra guard, if necessary.
JUDGMENT ENTERED
Dated: 11-Jan-2018
s/ Thomas Mountjoy
Green County Circuit Judge, Division 4

68a
APPENDIX D
SUPREME COURT OF MISSOURI
APPELLANT'S TRANSCRIPT ON APPEAL
NO. SC96924
_____________________
STATE OF MISSOURI, Plaintiff-Respondent,
vs.
CRAIG MICHAEL WOOD, Defendant-Appellant.
_____________________
In the Circuit Court of Greene County, Missouri
Case No. 1431-CR00658-01
_____________________
BEFORE THE HONORABLE
THOMAS E. MOUNTJOY, Judge of Division IV
Thirty-first Judicial Circuit
_____________________
January 11, 2018
_____________________
*

*

*

[4164]
THE COURT: All right. I want to make a little bit
further record and have a couple of remarks before I
grant allocution and we proceed.
Just again so the record’s clear here, November
2nd, 2017, as I indicated earlier, the jury in this case
returned its verdict finding the defendant guilty of
murder in the first degree of Hailey Owens. The Court
accepted that verdict.

69a
On November 6, 2017, the jury returned its verdict advising the Court the jury was unable to decide
or agree upon the punishment for murder in the first
degree. In its verdict for murder in the first degree, the
jury unanimously found beyond a reasonable doubt
that the State had proven six statutory aggravating
circumstances.
Specifically the jury found that, first, the murder
of Hailey Owens involved torture and depravity of
mind, and, as a result thereof, the murder was outrageously and wantonly vile, [4165] horrible, and inhuman in that, one, the defendant killed Hailey Owens
after she was bound or otherwise rendered helpless by
defendant, and that the defendant thereby exhibited a
callous disregard for the sanctity of all human life;
two, that the defendant's selection of the person he
killed was random and without regard to the victim's
identity and that defendant's killing of Hailey Owens
thereby exhibited a callous disregard for the sanctity
of human life.
The jury found, as the number two aggravating
circumstance, that the murder of Hailey Owens was
committed for the purpose of avoiding arrest.
Third, the murder of Hailey Owens was committed while the defendant was engaged in rape.
Four, the murder of Hailey Owens was committed
while the defendant was engaged in sodomy.
Five, the murder of Hailey Owens was committed
while the defendant was engaged in kidnapping.
And, six, that Hailey Owens was a witness or potential witness of a pending investigation of the kidnapping of Hailey Owens.
[4166]

70a
The jury further advised the Court, in its verdict
for murder in the first degree, that the jury did not
unanimously agree that the facts and circumstances
in mitigation of punishment were sufficient to outweigh facts and circumstances in aggravation of punishment. Again the Court accepted the verdict as to
punishment.
For the offense of murder in the first degree of
Hailey Owens, this Court does accept and agrees with
the factual findings of the jury as set forth in its verdict as to punishment. Specifically, this Court finds beyond a reasonable doubt the State did prove six statutory aggravating circumstances, and this Court finds
beyond a reasonable doubt that the State proved each
of the six, as I’ve just recited into the record.
The Court further finds the facts and circumstances in mitigation of punishment were not sufficient to outweigh facts and circumstances in aggravation of punishment. Therefore, this Court finds that,
based upon factual findings of the jury, that the jury
was required to consider both life imprisonment, without the possibility of probation or parole, [4167] and
death as possible punishments for the defendant.
The Court further finds that since the jury was
unable to agree upon which punishment to impose,
this Court, based upon the factual findings of the jury
and after the Court, having followed the same procedure required of the jury, is required to consider both
life imprisonment, without the possibility of probation
or parole, and death as possible punishments for the
defendant.
This Court, after considering the totality of the evidence presented in both the guilt and penalty phases

71a
of the trial, the factual findings of the jury, and following the procedures set out in Missouri statute, has
given very serious consideration to both life imprisonment, without the possibility of probation or parole,
and death.
This Court has also considered the issues raised
in the Defendant's motion for trial Court imposition of
a sentence of life without parole, as well as all of the
cases that have been outlined by the Defendant in that
regard.
So the Court has taken all of those into [4168] account. I’m not going to recite or repeat any of the facts
that both sides have dealt with here and particularly
those the prosecutor did a few minutes ago. We sat
through the trial process and many, many processes
and hearings before that over several years, and I
think the community, as well as all of us, are familiar
with the facts in great detail.
I would have to say there was, I think, in this case
a real factor of a death of innocence, the death of innocence of a ten-year-old little girl, Hailey, and not only
death of innocence but she gave her life, but also death
of innocence for a neighborhood, for a community, for
a family. Again, I think the earthquake analogy may
be very accurate, indeed.
But the words of the jury and what the Court has
just read as far as those aggravating circumstances
are not just words or hoops to be jumped through. They
are, in fact, what happened in this case and what happened to this little girl. It is an exceptional case, an
extreme case, I think, in all regards.
Mr. Wood, if you'd please stand for allocution at
this time.

72a
[4169]
By way of allocution, is there any legal reason the
Court should not proceed to judgment and sentence in
this case, Mr. Patterson?
MR. PATTERSON: No, sir.
THE COURT: By way of allocution, any legal reason the Court should not proceed to judgment and sentence in this case, Mr. Berrigan?
MR. BERRIGAN: None that haven't already been
raised, Your Honor.
THE COURT: And, Mr. Wood, by way of allocution, is there any legal reason the Court should not
sentence you at this time, sir?
If he wishes to make a statement, he may. I'm not
attempting to exclude that in the least. I've just not
heard that issue raised.
MR. BERRIGAN: No.
THE DEFENDANT: No, sir.
THE COURT: All right. And is the answer, then,
"no" as far as any legal reason, sir?
THE DEFENDANT: Yes, sir.
THE COURT: All right. For the offense of murder
in the first degree, this Court assesses and declares punishment to be death for the murder of Hailey Owens.
[4170]
It is the judgment and sentence of this Court that
the defendant, Craig Michael Wood, is hereby sentenced to death for the murder of Hailey Owens. Court
costs and $68 civil judgment for Crime Victim Compensation is assessed.
*

*

*

73a
APPENDIX E
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
U.S. Const. amend. VI
In all criminal prosecutions, the accused shall enjoy the right to a speedy and public trial, by an impartial jury of the State and district wherein the crime
shall have been committed, which district shall have
been previously ascertained by law, and to be informed
of the nature and cause of the accusation; to be confronted with the witnesses against him; to have compulsory process for obtaining witnesses in his favor,
and to have the Assistance of Counsel for his defence.
U.S. Const. amend. VIII
Excessive bail shall not be required, nor excessive
fines imposed, nor cruel and unusual punishments inflicted.
Mo. Rev. Stat. § 565.030
Trial procedure, first degree murder
1. Where murder in the first degree is charged but
not submitted or where the state waives the death
penalty, the submission to the trier and all subsequent
proceedings in the case shall proceed as in all other
criminal cases.
2. Where murder in the first degree is submitted to
the trier without a waiver of the death penalty, the
trial shall proceed in two stages before the same trier.
At the first stage the trier shall decide only whether
the defendant is guilty or not guilty of any submitted
offense. The issue of punishment shall not be submitted to the trier at the first stage. If an offense is

74a
charged other than murder in the first degree in a
count together with a count of murder in the first degree, the trial judge shall assess punishment on any
such offense according to law, after the defendant is
found guilty of such offense and after he finds the defendant to be a prior offender pursuant to chapter 558.
3. If murder in the first degree is submitted and the
death penalty was not waived but the trier finds the
defendant guilty of a lesser homicide, a second stage of
the trial shall proceed as in all other criminal cases.
The attorneys may then argue as in other criminal
cases the issue of punishment, after which the trier
shall assess and declare the punishment as in all other
criminal cases.
4. If the trier at the first stage of a trial where the
death penalty was not waived finds the defendant
guilty of murder in the first degree, a second stage of
the trial shall proceed at which the only issue shall be
the punishment to be assessed and declared. Evidence
in aggravation and mitigation of punishment, including but not limited to evidence supporting any of the
aggravating or mitigating circumstances listed in subsection 2 or 3 of section 565.032, may be presented
subject to the rules of evidence at criminal trials. Such
evidence may include, within the discretion of the
court, evidence concerning the murder victim and the
impact of the offense upon the family of the victim and
others. Rebuttal and surrebuttal evidence may be presented. The state shall be the first to proceed. If the
trier is a jury it shall be instructed on the law. The
attorneys may then argue the issue of punishment to
the jury, and the state shall have the right to open and
close the argument. The trier shall assess and declare

75a
the punishment at life imprisonment without eligibility for probation, parole, or release except by act of the
governor:
(1) If the trier finds by a preponderance of the
evidence that the defendant is intellectually disabled; or
(2) If the trier does not find beyond a reasonable
doubt at least one of the statutory aggravating circumstances set out in subsection 2 of section
565.032; or
(3) If the trier concludes that there is evidence
in mitigation of punishment, including but not limited to evidence supporting the statutory mitigating circumstances listed in subsection 3 of section
565.032, which is sufficient to outweigh the evidence in aggravation of punishment found by the
trier; or
(4) If the trier decides under all of the circumstances not to assess and declare the punishment
at death. If the trier is a jury it shall be so instructed.
If the trier assesses and declares the punishment at
death it shall, in its findings or verdict, set out in writing the aggravating circumstance or circumstances
listed in subsection 2 of section 565.032 which it found
beyond a reasonable doubt. If the trier is a jury it shall
be instructed before the case is submitted that if it is
unable to decide or agree upon the punishment the
court shall assess and declare the punishment at life
imprisonment without eligibility for probation, parole,
or release except by act of the governor or death. The
court shall follow the same procedure as set out in this
section whenever it is required to determine punishment for murder in the first degree.

76a
5. Upon written agreement of the parties and with
leave of the court, the issue of the defendant's intellectual disability may be taken up by the court and decided prior to trial without prejudicing the defendant's
right to have the issue submitted to the trier of fact as
provided in subsection 4 of this section.
6. As used in this section, the terms “intellectual
disability” or “intellectually disabled” refer to a condition involving substantial limitations in general functioning characterized by significantly subaverage intellectual functioning with continual extensive related
deficits and limitations in two or more adaptive behaviors such as communication, self-care, home living, social skills, community use, self-direction, health and
safety, functional academics, leisure and work, which
conditions are manifested and documented before
eighteen years of age.
7. The provisions of this section shall only govern
offenses committed on or after August 28, 2001.
Mo. Rev. Stat. § 565.032
Evidence to be considered in assessing punishment in
first degree murder cases for which death penalty authorized
1. In all cases of murder in the first degree for
which the death penalty is authorized, the judge in a
jury-waived trial shall consider, or shall include in his
or her instructions to the jury for it to consider:
(1) Whether a statutory aggravating circumstance or circumstances enumerated in subsection
2 of this section is established by the evidence beyond a reasonable doubt; and
(2) If a statutory aggravating circumstance or
circumstances is proven beyond a reasonable
doubt, whether the evidence as a whole justifies a

77a
sentence of death or a sentence of life imprisonment without eligibility for probation, parole, or release except by act of the governor.
In determining the issues enumerated in subdivisions
(1) and (2) of this subsection, the trier shall consider
all evidence which it finds to be in aggravation or mitigation of punishment, including evidence received
during the first stage of the trial and evidence supporting any of the statutory aggravating or mitigating circumstances set out in subsections 2 and 3 of this section. If the trier is a jury, it shall not be instructed
upon any specific evidence which may be in aggravation or mitigation of punishment, but shall be instructed that each juror shall consider any evidence
which he or she considers to be aggravating or mitigating.
2. Statutory aggravating circumstances for a murder in the first degree offense shall be limited to the
following:
(1) The offense was committed by a person with
a prior record of conviction for murder in the first
degree, or the offense was committed by a person
who has one or more serious assaultive criminal
convictions;
(2) The murder in the first degree offense was
committed while the offender was engaged in the
commission or attempted commission of another
unlawful homicide;
(3) The offender by his or her act of murder in
the first degree knowingly created a great risk of
death to more than one person by means of a
weapon or device which would normally be hazardous to the lives of more than one person;

78a
(4) The offender committed the offense of murder in the first degree for himself or herself or another, for the purpose of receiving money or any
other thing of monetary value from the victim of
the murder or another;
(5) The murder in the first degree was committed against a judicial officer, former judicial officer,
prosecuting attorney or former prosecuting attorney, circuit attorney or former circuit attorney, assistant prosecuting attorney or former assistant
prosecuting attorney, assistant circuit attorney or
former assistant circuit attorney, peace officer or
former peace officer, elected official or former
elected official during or because of the exercise of
his official duty;
(6) The offender caused or directed another to
commit murder in the first degree or committed
murder in the first degree as an agent or employee
of another person;
(7) The murder in the first degree was outrageously or wantonly vile, horrible or inhuman in
that it involved torture, or depravity of mind;
(8) The murder in the first degree was committed against any peace officer, or fireman while engaged in the performance of his or her official duty;
(9) The murder in the first degree was committed by a person in, or who has escaped from, the
lawful custody of a peace officer or place of lawful
confinement;
(10) The murder in the first degree was committed for the purpose of avoiding, interfering with, or
preventing a lawful arrest or custody in a place of
lawful confinement, of himself or herself or another;

79a
(11) The murder in the first degree was committed while the defendant was engaged in the perpetration or was aiding or encouraging another person to perpetrate or attempt to perpetrate a felony
of any degree of rape, sodomy, burglary, robbery,
kidnapping, or any felony offense in chapter 195 or
579;
(12) The murdered individual was a witness or
potential witness in any past or pending investigation or past or pending prosecution, and was killed
as a result of his or her status as a witness or potential witness;
(13) The murdered individual was an employee
of an institution or facility of the department of corrections of this state or local correction agency and
was killed in the course of performing his or her official duties, or the murdered individual was an inmate of such institution or facility;
(14) The murdered individual was killed as a result of the hijacking of an airplane, train, ship, bus
or other public conveyance;
(15) The murder was committed for the purpose
of concealing or attempting to conceal any felony
offense defined in chapter 195 or 579;
(16) The murder was committed for the purpose
of causing or attempting to cause a person to refrain from initiating or aiding in the prosecution of
a felony offense defined in chapter 195 or 579;
(17) The murder was committed during the
commission of an offense which is part of a pattern
of criminal street gang activity as defined in section 578.421.
3. Statutory mitigating circumstances shall include
the following:

80a
(1) The defendant has no significant history of
prior criminal activity;
(2) The murder in the first degree was committed while the defendant was under the influence of
extreme mental or emotional disturbance;
(3) The victim was a participant in the defendant's conduct or consented to the act;
(4) The defendant was an accomplice in the
murder in the first degree committed by another
person and his or her participation was relatively
minor;
(5) The defendant acted under extreme duress
or under the substantial domination of another
person;
(6) The capacity of the defendant to appreciate
the criminality of his or her conduct or to conform
his or her conduct to the requirements of law was
substantially impaired;
(7) The age of the defendant at the time of the
offense.

81a
APPENDIX F
JURY SENTENCING FORM
VERDICT
(Jurors: Use this form only if you are unable to decide or agree upon the punishment. See Instruction
No. 21 for directions as to what must be written on this
verdict form. You will bear in mind, however, that under the law it is your primary duty and responsibility
to fix the punishment).
We, the jury, having found the defendant Craig
Wood guilty of murder in the first degree of Hailey Owens, are unable to decide or agree upon punishment.
We answer the following questions:
1. Does the jury unanimously find beyond a reasonable doubt statutory aggravating circumstance (or
circumstances)?
Yes [X] No [ ]
(Jurors: If the answer to Question 1 is no, the jury
must return the verdict form fixing the defendant’s
punishment at life imprisonment without eligibility
for probation or parole).
2. Does the jury unanimously find that there are
facts and circumstances in mitigation of punishment
sufficient to outweigh facts and circumstances in aggravation of punishment?
Yes [ ] No [X]
(Jurors: If the answer to Question 2 is yes, the jury
must return the verdict form fixing the defendant’s
punishment at life imprisonment without eligibility
for probation or parole).

82a
If the answer to Question 1 is yes, list below the
statutory aggravating circumstance (or circumstances) that you have unanimously found beyond a
reasonable doubt:
1) The murder of Hailey involved torture and depravity
(1) that the defendant killed Hailey after she
was bound or otherwise rendered helpless by the
defendant, and the defendant thereby exhibited a
callous disregard for the sanctity of all human life;
(2) the defendant's selection of the person he
killed was random and without regard to the victim’s identity and that defendant’s killing of Hailey thereby exhibited a callous disregard for the
sanctity of human life
2) The murder of Hailey was committed for the
purpose of avoiding arrest.
3) The murder of Hailey was committed while the
defendant was engaged in rape.
3) The murder of Hailey was committed while the
defendant was engaged in sodomy.
4) The murder of Hailey was committed while the
defendant was engaged in kidnapping.
5) Hailey was a witness or potential witness of a
pending investigation of the kidnapping of Hailey.
s/ Foreperson

83a
APPENDIX G
JURY INSTRUCTIONS
INSTRUCTION 17
In determine the punishment to be assessed
against the defendant for the murder of Hailey Owens,
you must first consider whether one or more of the following statutory aggravating circumstances exists:
1. Whether the murder of Hailey Owens involved
torture and depravity of mind, and whether, as a result thereof, the murder was outrageously and wantonly vile, horrible, and inhuman. You can make a determination of depravity of mind only if you find:
(1) That the defendant killed Hailey Owens
after she was bound or otherwise rendered helpless by defendant and that defendant thereby exhibited a callous disregard for the sanctity of all
human life, and
(2) That the defendant’s selection of the person he killed was random and without regard to
the victim’s identity and that defendant’s killing
of Hailey Owens thereby exhibited a callous disregard for the sanctity of all human life.
2. Whether the murder of Hailey Owens was committed for the purpose of avoiding, interfering with, or
preventing a lawful arrest of defendant.
3. Whether the murder of Hailey Owens was committed while the defendant was engaged in the perpetration of rape.
4. Whether the murder of Hailey Owens was committed while the defendant was engaged in the perpetration of sodomy.

84a
5. Whether the murder of Hailey Owens was committed while the defendant was engaged in the perpetration of kidnapping.
6. Whether Hailey Owens was a witness or potential witness in a pending investigation, the kidnapping
of Hailey Owens, and was killed as result of her status
as a witness or potential witness.
You are further instructed that the burden rests
upon the state to prove at least one of the foregoing
circumstances beyond a reasonable doubt. On each circumstance that you find beyond a reasonable doubt,
all twelve of you must agree as to the existence of that
circumstance.
Therefore, if you do not unanimously find from the
evidence beyond a reasonable doubt that at least one
of the foregoing circumstances exists, you must return
a verdict fixing the punishment of the defendant at imprisonment for life by the Department of Corrections
without eligibility for probation or parole.
As used in this instruction, a person commits the
felony of rape in the first degree if the person has sexual intercourse with another person by the use of forcible compulsion. Sexual intercourse means any penetration, however slight, of the female sex organ by the
male sex organ, whether or not an emission results.
As used in this instruction, a person commits the
felony of sodomy in the first degree if the person has
deviate sexual intercourse with another person by the
use of forcible compulsion. Deviate Sexual Intercourse
means any act involving the genitals of one person and
the hand, mouth, tongue, or anus of another person or
a sexual act involving the penetration, however slight,
of the male or female sex organ or the anus by a fine,

85a
instrument, or object done for the purpose of arousing
or gratifying the sexual desire of any person or for the
purpose of terrifying the victim.
As used in this instruction, forcible compulsion
means either physical force that overcomes reasonable
resistance or a threat, express or implied, that places
a person in reasonable fear of death or serious physical
injury. The term “serious physical injury” means physical injury that creates a substantial risk of death or
that causes serious disfigurement or protracted loss or
impairment of the function of any part of the body or
kidnapping of herself.
As used in this instruction, a person commits the
offense of kidnapping if the person unlawfully removes
another person without his or her consent from the
place where he or she is found or unlawfully confines
another person without his or her consent for a substantial period, for the purpose of facilitating the commission of any felony.
INSTRUCTION 21
You will be provided with forms of verdict for your
convenience. You cannot return any verdict imposing
a sentence of death unless all twelve jurors concur in
and agree to it, but any such verdict should be signed
by your foreperson alone.
If you unanimously decide, after considering all of
the evidence and instructions of law given to you, that
the defendant must be put to death for the murder of
Hailey Owens, your foreperson must complete the verdict form and write into your verdict form all of the

86a
statutory aggravating circumstances submitted in Instruction No. 17 which you found beyond a reasonable
doubt.
If you unanimously decide that the facts or circumstances in mitigation of punishment outweigh the
facts and circumstances in aggravation of punishment,
then the defendant must be punished for the murder
of Haley Owens by imprisonment for life by the Department of Corrections without eligibility for probation or parole, and your foreperson will sign the verdict
form so fixing the punishment.
If you unanimously decide, after considering all of
the evidence and instructions of law, that the defendant must be punished for the murder of Haley Owens
by imprisonment for life by the Department of Corrections without eligibility for probation or parole, your
foreperson will sign the verdict form so fixing the punishment.
If you are unable to unanimously find the existence of at least one statutory aggravating circumstance beyond a reasonable doubt, as submitted in Instruction No. 17, then your foreperson must sign the
verdict form fixing the punishment at imprisonment
for life by the Department of Corrections without eligibility for probation or parole.
If you do find unanimously find the existence of at
least one statutory aggravating circumstance beyond
a reasonable doubt, as submitted in Instruction No.
17, and you are unable to unanimously find that the
facts or circumstances in mitigation of punishment
outweigh the facts and circumstances in aggravation
of punishment, your foreperson will complete the verdict form and sign the verdict form stating that you

87a
are unable to decide or agree upon punishment. In
such case, you must answer the questions on the verdict form and write into your verdict all of the statutory aggravating circumstances submitted in Instruction No. 17 that you found beyond a reasonable doubt
and your foreperson must sign the verdict from stating
that you are unable to decide or agree upon a punishment.
If you return a verdict indicating that you are unable to decide or agree upon the punishment, the Court
will fix the defendant's punishment at death or at imprisonment for life by the Department of Corrections
without eligibility for probation or parole. You will
bear in mind, however, that under the law, it is the
primary duty and responsibility of the jury to fix the
punishment.
When you have concluded your deliberations, you
will complete the applicable form to which all twelve
jurors agree and return it with all unused forms and
the written instructions of the Court.

88a
APPENDIX H
MISSOURI CAPITAL CASES INVOLVING
POTENTIAL DEATH SENTENCE
1998 - PRESENT*
Sentencing
Year
1998
1998

1998

*

Defendant

Charles
Armentrout
Walter
Barton

Winston
Bell

Case
No./
Source
2297101754
998
S.W.2d
19, 24
(Mo.
1999) (en
banc)
2194R03409-02

Sentence

Death
(Jury)
Death
(Jury)

LWOP
(Jury)

This list excludes four deadlock cases that occurred shortly
after the Missouri Supreme Court recognized that its sentencing
scheme may run afoul of Ring v. Arizona, State v. Whitfield, 107
S.W.3d 253, 262 (Mo. 2003) (en banc), but had yet to articulate
new jury instructions. These cases are omitted because the trial
courts did not take the sentencing decision away from the jury
and decide between LWOP and the death penalty. See State v.
Barry Baker, St. Louis County Case No. 2100R-04166-01; State
ex rel. Baker v. Kendrick, 136 S.W.3d 491 (Mo. 2004); State v.
Bobby Mayes, Pulaski County Case No. 25RO5990121F; State ex
rel. Mayes v. Wiggins, 150 S.W.3d 290 (Mo. 2004). The list also
excludes State v. Vernell Loggins, Franklin County Case No.
09AB-CR02371-01, where the trial court ruled that the state had
failed to prove an aggravating circumstance and therefore failed
to prove Its case. Because the case should have never gone to the
jury in the penalty phase, the trial court judge imposed LWOP.

89a
1998

Jerry
Brandon
Carman
Deck

2297100382-01
23CR1961084

1998

John
Middleton

1998

Kenneth
Thompson

1998

Deshun
Washington
John
Winfield

995
S.W.2d
443, 451
(Mo.
1999) (en
banc)
985
S.W.2d
779 (Mo.
1999) (en
banc)
2196R06443-01
2196R04909-01

1998

1998

1999

Cecil
Barriner

LWOP
(Jury)
Death
(Jury)
Death
(Jury)
Death
(Jury)

Death
(Jury)
Death
(Jury)

LWOP
(Jury)
Death
(Jury)
Death
(Jury)
34 S.W.3d Death
139, 144
(Judge after
(Mo.
jury
2000) (en deadlock)
banc)
Death
(Judge after
jury
deadlock)

90a
1999

Mark
Christeson

1999

Louis Clark

1999

Martiez
Davis
Robert
Driscoll

1999

1999
1999

Paul
Goodwin
Cleveland
Jackson

1999

Alis Johns

1999

Ernest
Johnson

1999

Antoine
King

50 S.W.3d
251, 25960
(Mo.
2001) (en
banc)
2195R05234-02
2299100101
55 S.W.3d
350, 351
(Mo.
2001) (en
banc)
2198R01227-01
2297102699A01

Death
(Jury)
Death
(Jury)
Death
(Jury)
LWOP
(Jury)
LWOP
(Jury)
Death
(Jury)

Death
(Jury)
LWOP
(Jury)
LWOP
(Jury)
25R05961 Death
379F
(Jury)
13R01944 Death
1538-01
(Jury)
Death
(Jury)
Death
(Jury)
41 S.W.3d LWOP
528 (Mo.
(Jury)
App. E.D. LWOP
2001)
(Jury)

91a
1999

Earl Ringo

1999

John Smith

1999

Walter
Storey

1999

Leon Taylor

1999

Danny
Wolfe

2000

Charles
Anglin
Gary Black

2000
2000

Bobby
Mayes

2000

Derrick
Roper

13R01986
0152-01

Death
(Jury)
Death
(Jury)
32 S.W.3d Death
532 (Mo.
(Jury)
2000) (en Death
banc)
(Jury)
40 S.W.3d Death
898, 902
(Jury)
(Mo.
2001) (en
banc)
18 S.W.3d Death
366, 368
(Jury)
(Mo.2000)
(en banc)
13 S.W.3d Death
248, 255
(Jury)
(Mo.
Death
2000) (en (Jury)
banc)
13R01986 LWOP
2442-01
(Jury)
CR598Death
2792FX
(Jury)
63 S.W.3d Death
615, 624
(Jury)
(Mo.
Death
2001) (en (Jury)
banc)
25R03970 LWOP
239F-01
(Jury)

92a
2001

Terrance
Anderson

2001
2001

Kenneth
Baumruk
Andre Cole

2001

Kim Davis

2001

Richard
DeLong

32R03970
0031

LWOP
(Jury)
Death
(Jury)
0511Death
CR00094 (Jury)
71 S.W.3d Death
163, 177
(Jury)
(Mo.
2002) (en
banc)
107
LWOP
S.W.3d
(Jury)
410, 416
(Mo. App.
W.D.
2003)
31199CF0 LWOP
001
(Jury)
LWOP
(Jury)
LWOP
(Jury)
LWOP
(Jury)
LWOP
(Jury)

93a
2001

Kenneth
Thompson

2001

Michael
Tisius

2001

Marcellus
Williams

2002

Cecil
Barriner

85 S.W.3d
635, 63738 (Mo.
2002) (en
banc)

Death
(Judge after
jury
deadlock)
Death
(Judge after
jury
deadlock)
01CR164 Death
629
(Jury)
Death
(Jury)
97 S.W.3d Death
462, 475
(Jury)
(Mo.
2003) (en
banc)
111
Death
S.W.3d
(Jury)
Death
396, 397
(Jury)
(Mo.
2003) (en
banc)

94a
2002

Deandre
Buchanan

00CR165
704-01

2002

Kimber
Edwards
Michael
Farris
Lewis
Gilbert

2100R03704-01
16CR990
04906-01
13R06940
1054-01

Douglas
Maupin
Dorian
Perry
Carman
Deck

01CR168
223
2100R01772-01
23CR1961084

2002
2002

2002
2002
2003

2003

Travis Glass 136
S.W.3d
496, 502
(Mo.
2004) (en
banc)

Death
(Judge after
jury
deadlock)
Death
(Judge after
jury
deadlock)
Death
(Judge after
jury
deadlock)
Death
(Jury)
LWOP
(Jury)
Death
(Jury)
Death
(Jury)
LWOP
(Jury)
LWOP
(Jury)
Death
(Jury)
Death
(Jury)
Death
(Jury)

95a
2003

Richard
Strong

2100R04590-01

2003

Michael
Taylor

2003

Eldon
Tinsley
Cecil
Barriner

134
S.W.3d
21,24
(Mo.
2004) (en
banc)
01CR680
916-01
03CR170
457

2004

2004

Earl Forrest

03CR831
90

2004

Mark Gill

2004

David Zink

2005

Johnny
Johnson

02CR754
906
27R05010
0219
02CR003834 /
207
S.W.3d
24, 30
(Mo.
2006) (en
banc)

Death
(Jury)
Death
(Jury)
Death
(Jury)

LWOP
(Jury)
LWOP
(Jury)
LWOP
(Jury)
Death
(Jury)
Death
(Jury)
Death
(Jury)
Death
(Jury)
Death
(Jury)
Death
(Jury)

96a
2005

2006

Justin
Brown

2006

Ernest
Johnson

2103R00005-01
2102R01458-01
29R05980
2792-01
246
S.W.3d
519, 522
(Mo. App.
S.D.
2008)
13R01944
1538-01

2006

Luther
Martin

25R05020
745F-01

2006

Vincent
McFadden
Scott
McLaughlin

2103R02642-01
2103R05745-01

Danny
Wolfe

26R02970
0785-01

2005
2006

2006

2006

Vincent
McFadden
Kenneth
Sisak
Gary Black

Death
(Jury)
LWOP
(Jury)
Death
(Jury)
LWOP
(Jury)

Death
(Jury)
Death
(Jury)
Death
(Jury)
LWOP
(Jury)
LWOP
(Jury)
Death
(Jury)
Death
(Judge after
jury
deadlock)
LWOP
(Jury)
LWOP

97a
2006

Walter
Barton

2008

Carman
Deck

240
S.W.3d
693, 700
(Mo. 2007
(en banc))
0511CR00094
2103R0000502
32R03970
0031
0616CR0319501
23CR1961084

2007

Kenneth
Baumruk
Vincent
McFadden

2008

Brian
Dorsey

07BACR01875

2008

Larry
Flenoid
Kevin
Johnson
Vincent
McFadden

2100R01979-01
2105R02833-01
2103R02642-02

2007

2008
2008

2008
2008

Terrance
Anderson
Richard
Davis

Death
(Jury)

Death
(Jury)
Death
(Jury)
Death
(Jury)
Death
(Jury)
Death
(Jury)
Death
(Jury)
Death
(Jury)
Death
(Jury)
LWOP
(Jury)
Death
(Jury)
Death
(Jury)

98a
2008

Leonard
Taylor

2104R05338-01

2009

Gregory
Bowman

2009

Stanley
Johnson
Lance
Shockley

337
S.W.3d
679, 683
(Mo.
2011) (en
banc)
2106R04034-01
05C2CR0008001

2009

2010

Michael
Tisius

01CR164
629

2011

Fredrick
Barnes

0722CR0912201

2011

Ryan
Patterson

09G9CR0208201

Death
(Jury)
Death
(Jury)
Death
(Jury)
Death
(Jury)
Death
(Jury)

LWOP
(Jury)
Death
(Judge after
jury
deadlock)
Death
(Jury)
Death
(Jury)
LWOP
(Judge after
jury
deadlock)
LWOP
(Jury)
LWOP
(Jury)
LWOP
(Jury)

99a
2011

Todd
Shepard
Christopher
Collings
Robert
Blurton

08SLCR0
8802-01
08PHCR0
1205
10CYCR0
1475

2013

Jesse
Driskill

10LACR0
087201

2013

David
Hosier

2017

Mark Gill

2017

Marvin Rice

09ACCR0
297201
12BACR0
3801
1611CR0096701

2018

Jeffery
Nichols

2018

Craig Wood

2012
2013

Randolph
County
Case No.
17RACR0005101
1431CR0065801

LWOP
(Jury)
Death
(Jury)
Death
(Jury)
Death
(Jury)
Death
(Jury)
Death
(Jury)
Death
(Jury)
Death
(Jury)
LWOP
(Jury)
Death
(Judge after
jury
deadlock)
LWOP
(Jury)

Death
(Judge after
jury
deadlock)

